<html>
<title> - THE NOMINATION OF HON. JOHN D. NEGROPONTE TO BE U.S. AMBASSADOR TO IRAQ</title>
<body><pre>[Senate Hearing 108-474]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-474

   THE NOMINATION OF HON. JOHN D. NEGROPONTE TO BE U.S. AMBASSADOR TO 
                                  IRAQ

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 27, 2004

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                    U.S. GOVERNMENT PRINTING OFFICE
94-081                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1

Negroponte, Amb. John D., Permanent Representative to the United 
  Nations, nominee to be U.S. Ambassador to Iraq.................    12
    Prepared statement...........................................    15

Ambassador Negroponte's Responses to Additional Questions 
  Submitted for the Record
    Responses to additional questions for the record from Senator 
      Lugar......................................................    50
    Responses to additional questions for the record from Senator 
      Biden......................................................    51
    Responses to additional questions for the record from Senator 
      Allen......................................................    57
    Responses to additional questions for the record from Senator 
      Corzine....................................................    58

                                 (iii)

  

 
THE NOMINATION OF HON. JOHN D. NEGROPONTE TO BE U.S. AMBASSADOR TO IRAQ

                              ----------                              


                        TUESDAY, APRIL 27, 2004

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m. in 
room SD-106, Dirksen Senate Office Building, Hon. Richard G. 
Lugar (chairman of the committee), presiding.
    Present: Senators Lugar, Hagel, Chafee, Brownback, Coleman, 
Biden, Sarbanes, Dodd, Feingold, Boxer, Bill Nelson and 
Corzine.

    OPENING STATEMENT OF SENATOR RICHARD G. LUGAR, CHAIRMAN

    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order.
    Today, the Foreign Relations Committee meets to consider 
the nomination of Ambassador John Negroponte to be United 
States Ambassador to Iraq. This post in my judgment will be one 
of the most consequential Ambassadorships in American history. 
The Ambassador to Iraq not only will be called upon to lead an 
estimated 1,700 embassy personnel, including 1,000 Americans 
and 700 Iraqis, he will be at the epicenter of international 
efforts to secure and to reconstruct Iraq, and to provide the 
developing Iraqi Government with the opportunity to achieve 
responsible nationhood.
    American credibility in the world, progress in our war on 
terrorism, relationships with our allies, and the future of the 
Middle East depend on a positive outcome in Iraq. What happens 
there during the next 18 months almost certainly will determine 
whether we can begin to direct the Middle East toward a more 
productive and peaceful future beyond the grip of terrorist 
influences. Helping the Iraqi people achieve a secure, 
independent state is a vital United States security priority 
that requires the highest level of our national commitment.
    With so much at stake, I am pleased that the President of 
the United States has nominated a veteran diplomat and manager 
to lead the American presence in Iraq. Ambassador Negroponte 
has served as United States Ambassador to Honduras, Mexico, and 
the Philippines. He has also served as an Assistant Secretary 
of State, and as Deputy Assistant for National Security Affairs 
under President Ronald Reagan. He has been the United States 
Ambassador to the United Nations since September 18, 2001, just 
7 days after the September 11 attacks. The context and 
credibility that he has developed at the United Nations will be 
invaluable.
    If we are to be successful in Iraq, the United Nations and 
the international community must play a more central role. U.N. 
involvement can help us generate greater international 
participation, improve the political legitimacy of the interim 
Iraqi Government, and take the American face off of the 
occupation of Iraq. The appointment of an Ambassador who 
occupies such a high and visible post underscores, for our 
Coalition partners and the Iraqis, that the American commitment 
to Iraq is strong and that we mean to succeed.
    Last week, the Foreign Relations Committee held three 
hearings to examine whether American and Iraqi authorities are 
ready for the transition to Iraqi sovereignty on June 30. These 
hearings greatly advanced our understanding of the situation in 
Iraq and helped the committee answer many questions. But we 
will hold additional hearings in the weeks to come to monitor 
progress, and to illuminate for the American people, the 
challenges and responsibilities that we face in Iraq.
    The President and other leaders, including Members of 
Congress, must communicate with the American people about our 
plans in Iraq. American lives will continue to be at risk in 
Iraq, and substantial American resources will continue to be 
spent there for the foreseeable future.
    This nomination hearing is part of our ongoing oversight. I 
am convinced that the confidence and commitment demonstrated by 
the pronouncement of a flexible, but detailed plan for Iraq is 
necessary for our success. Such a plan would prove to our 
allies and to Iraqis that we have a strategy and that we are 
committed to making it work. If we cannot provide this clarity, 
we risk the loss of support of the American people, the loss of 
potential contributions from our allies, and the 
disillusionment of Iraqis.
    During the set of three hearings on Iraq last week, I posed 
six detailed questions as a way of fleshing out a plan for 
Iraq. I believe that answers to those questions would 
constitute a coherent strategy for Iraq. In pursuit of this 
clarity, we discussed issues surrounding Ambassador Brahimi's 
efforts, the status of American Armed Forces in Iraq after the 
transition, the role of U.N. Security Council Resolutions, 
plans for elections, the composition of the United States 
Embassy and efforts to provide security for its personnel, and 
how we intend to pay for the continuing United States 
involvement in Iraq. The Foreign Relations Committee will be 
persistent in probing for details on these and many other 
aspects of the Iraqi plans.
    We have taken up Ambassador Negroponte's nomination in 
expedited fashion. Processing a diplomatic nomination often 
requires weeks and sometimes months from the time the President 
announces it. The diligent efforts of the State Department and 
our own staff on both sides of the aisle, we have accelerated 
the normal timetable to give Ambassador Negroponte and the 
administration a chance to stand up the United States Embassy 
in Iraq as soon as possible. This nomination was announced just 
last week. With the help of Senator Biden and the other members 
of this committee, we intend to vote on it this coming 
Thursday, along with other nominations that will come before 
our business meeting.
    Under Secretary Marc Grossman testified last Thursday about 
the importance of engaging the interim Iraqi Government as soon 
as it is selected. We cannot simply turn on the lights at the 
Embassy on June 30 and expect everything to go well. We must be 
rehearsing with Iraqi authorities and our Coalition partners 
how decisionmaking and administrative power will be distributed 
and exercised. It is critical, therefore, that Ambassador 
Negroponte and his team be in place at the earliest possible 
moment.
    Today, we look forward to a thorough discussion with 
Ambassador Negroponte about his perspectives on Iraq and his 
plans for providing leadership to our Embassy. We recognize the 
deep, personal commitment necessary on the part of Ambassador 
Negroponte and his family to undertake this very difficult 
assignment, and we are grateful that a leader of his stature 
and experience is willing to step forward.
    Let me pause at this point and to ask if my colleagues 
might have words of greeting and introduction.
    Senator Dodd.
    Senator Dodd. Well, thank you very much, Mr. Chairman.
    And let me thank you as well for your opening comments and 
underscore the themes behind them. I think that they are very 
solid themes, and ones which you pursued during these last 
number of hearings that we've held. And so I congratulate you 
once again, on having this committee to perform such a very 
important educational function at this time.
    And let me begin by thanking John Negroponte for doing 
this. And you said well, Mr. Chairman, this is in many ways a 
thankless task to be taking on. It is a very, very difficult 
one. But John Negroponte has a very distinguished career, and 
he's certainly more than eminently qualified to take on this 
challenge. And so we welcome your willingness to pursue this.
    And let me say to you, Mr. Chairman, that from the very 
outset, I'll do everything I can as well, to see that we 
expedite this nomination. I know that Senator Biden feels very 
much the same, as other members of the committee do, and so we 
can try to get this work done over the next several days.
    Having said that, and although the process may be abridged, 
and with good reason, I certainly welcome today's opportunity 
to address the nomination briefly.
    We all know on this committee that U.S. Ambassadors perform 
one of the most critical and crucial tasks of our Nation. An 
effective Ambassador is vital to facilitating the success of 
American foreign policy objectives. He or she is the bearer of 
concepts of human rights, of freedom, of free markets, of free 
press, and the rule of law. And at this moment, there is no 
more important Ambassadorial post to the U.S. national 
interests than in Iraq.
    In fact, as you said Mr. Chairman, this may be one of the 
most important post ever held by an American ambassador at any 
point in time. Our overall measure of success, in that country 
of Iraq, will in great part be dependent upon the success of 
our diplomatic efforts. I happen to believe that Ambassador 
John Negroponte, a career diplomat with a long, and very large 
and distinguished career, has the requisite skills for this 
incredibly important post.
    Unfortunately, up to this point, U.S. efforts in Iraq have 
been plagued, in my view, by a lack of planning on the part of 
the administration. This lack of planning has seriously 
jeopardized the security situation in that country. And the 
lack of security, unfortunately, has lost us the confidence of 
many Iraqis. It is undermining our mission there.
    This isn't simply my observation. I was told so directly, a 
few months ago, by an Iraqi during my trip to the country in 
December well before the recent flare-up in violence. This was 
an ordinary man, a Shiite, a moderate, a forward-thinking 
individual. He very frankly told me that the lawlessness which 
followed the war negatively impacted Iraqis confidence in 
America's intentions, preparedness and capabilities to create a 
safe and secure Iraq.
    Let me be very clear the lawlessness was not a failure, a 
military failure rather, it was a failure on the part, I 
believe, of civilian planners and the administration. It will 
be incumbent upon you, Mr. Ambassador, along with others in the 
U.S. Mission and administration, and hopefully with the help of 
the United Nations, to win back the confidence of the Iraqi 
people.
    Given what is happening on the ground there at this moment, 
it is an understatement to say that this is not going to be an 
easy task. As Chief of Mission in that country, the U.S. 
Ambassador will replace Ambassador Bremer and the Coalition 
Provisional Authority as the U.S. presence in that nation, 
monitoring and supporting Iraq's transition to self-rule and 
democratic governments.
    It is well-known that Ambassador Negroponte and I had some 
differences, many years ago, when he was Ambassador in the 
1980s in Honduras. Those differences stemmed largely from a 
lack of candor about what the United States was and wasn't 
doing in Central America, and the conflict at that time. And 
although I intend to support, and strongly support, this 
nomination when it comes to a vote in this committee, and later 
on the Senate floor, I want to make one point especially clear. 
That same issue, candor in my view, is going to be critical 
with respect to continued support for U.S. policies in Iraq.
    If the administration's policies aren't working, it will be 
your duty to the American people to say so, and to say so very 
clearly, and without any hesitation, so that we can make course 
corrections before it's too late.
    U.S. policy in Iraq must stop being crafted in a reactive 
and hasty manner characterized by much of the Bush 
administration's policies up to this point. Instead, the United 
States must develop a clear, proactive and comprehensive 
strategy, in cooperation with the international community, and 
of course, the Iraqis themselves.
    I am very hopeful, Mr. Chairman, that this nominee would 
draw upon his years of diplomatic experience, his senior 
status, he's a man of candor and he's not afraid to speak his 
mind. And this is going to be absolutely critical, John, in 
these days, that you continue to do so. And your contacts in 
the United Nations, I think you're going to be tremendously 
helpful to us, as we try to get back our footing in Iraq.
    Ambassador Negroponte, you're entering this post at a most 
critical time. As you know, the June 30 deadline for the 
handover of sovereignty is fast approaching, and the likelihood 
is increasing that the interim Iraqi Government will be far 
from a fully sovereign entity called for in the Law of 
Administration for the State of Iraq.
    Iraq is witnessing a state of unrest and insecurity not 
seen since the days following the fall of Saddam Hussein, and 
our troops are in great peril. We have a genuine opportunity, I 
believe, to transform Iraq from a dictatorship to a member of 
the family of democratic nations. It is a complex and difficult 
path, but one that we need to get right. I have several very 
specific questions, Mr. Chairman, which I will reserve for the 
questioning. But again, I congratulate you, John, for taking 
his job.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Dodd, for your 
opening comment.
    Senator Biden has graciously said that he will make an 
opening statement after other colleagues have been heard. Thus, 
I will recognize Senator Hagel now.
    Senator Hagel. Mr. Chairman, thank you.
    I will withhold my comments as well until the questioning 
period to give us an opportunity to spend more time with 
Ambassador Negroponte.
    But I would conclude by saying we very much appreciate this 
preeminent diplomat, his willingness to step forward and take 
on an immense responsibility, and a very, very large task, as 
well as his family. And we will help them in every way that we 
can.
    With that, Mr. Chairman, I'll yield back my time and wait 
to hear from our distinguished witness.
    The Chairman. Thank you, Senator Hagel.
    Senator Boxer, do you have an opening comment?
    Senator Boxer. I'll wait.
    The Chairman. I thank you, Senator.
    Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman.
    Welcome, Ambassador Negroponte. Very good to have you here. 
I will forgo a formal statement. But I would just make a note 
of the situation that you're going into, which you note, and 
you know, of us handing over sovereignty to Iraq, and you will 
be the Ambassador in a period of time when we're going from a 
role as an occupier, into a role as a supporter of democracy in 
Iraq.
    It is just going to be a critical transition, and I think 
it is going to be difficult. It is going to be something what 
we probably should have done months earlier, more along the 
design of what, perhaps, if we could have, what has taken place 
in Afghanistan, of having an Afghan face, and an Afghan 
leadership, but at a very early stage. But, we're getting there 
now and we're going to do that, and it is important that we do 
that.
    That handoff in that transition, and that handing off the 
sovereignty is going to be at such a critical phase, I stand 
ready to provide any assistance that I can and support.
    Also, just on one point that is coming up now, I think we 
are going to have to have to bring back a lot more of the 
people there were in the government, even during Saddam 
Hussein. I know that is a tough thing to do, and you're going 
to ferret out who is worthy and who is somebody that we can 
deal with. But we certainly saw that feature when the Communist 
countries fell, the number of people that were Communist 
yesterday, and the next day, they're democracy advocates, or 
free-market advocates, and they made the transition. There are 
some that are better than others.
    But I think that you're going to have to be one that is 
going to have to be a very shrewd judge of people, and hearts, 
which is awfully difficult to do.
    So I wish you well and God speed. I look forward to try to 
be of any assistance I can.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Brownback.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    I think, unanimously, this committee gives you it's best 
wishes. And our hopes and prayers go with you, because I don't 
think we have any choice. We have to be successful in Iraq for 
the interests of the United States, for the interests of the 
free world. That's what's at stake. God speed.
    The Chairman. Thank you very much, Senator Nelson.
    Senator Coleman.
    Senator Coleman. Thank you very much, Mr. Chairman.
    Mr. Chairman, I want to thank you for your leadership in 
expediting this nomination process. I would note that this 
nomination presents a unique opportunity to rise above some of 
the partisanship and finger pointing that has characterized the 
Iraq debate. I hope that we seize that opportunity, and God 
speed. I look forward to strongly supporting this nomination.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Coleman.
    Senator Biden.

       OPENING STATEMENT OF SENATOR JOSEPH R. BIDEN, JR.,
                         RANKING MEMBER

    Senator Biden. Thank you very much, Mr. Chairman.
    Mr. Ambassador, welcome. I don't know whether to say 
congratulations, but I'm glad we have a man of your caliber who 
is ready to take on this daunting task.
    This may sound paradoxical, but I believe that the lower 
your profile is the more successful you'll likely to be in 
Iraq. Let me explain what I mean.
    The Iraqi people have been promised as we have all known 
and heard repeatedly, sovereignty on June 30th.
    We have yet to define exactly what that means, and it is 
understandable that is difficult to do so. Yet all of us know 
that Iraqi institutions are not strong enough to handle their 
own security on June 30th. We also know that the Iraqis will 
need a political referee to prevent the country from sliding 
into a civil war.
    The irony here is that, and I know that you know this well, 
we cannot want a representative government for the Iraqi people 
more than the Iraqi people want a representative government.
    We all know through three decades of absolute brutal 
repression, that the majority of the Iraqi people, and this is 
the premise upon which we're basing everything, I am anyway, 
that the majority of the Iraqi people reject an Iranian style 
theocracy, and reject the introduction of a strongman as the 
governing mechanism of their country.
    We assume, based on polling data and our knowledge of the 
region and the country, that the majority of the Iraqi people 
want some form of a representative government, whether or not 
it falls into the category of a liberal Western democracy or 
not, which I think is beyond our reach, maybe not in a 
generation, but clearly not within a year in my view--or within 
several years.
    And so, we're assuming, I think all of us, that the 
majority of the Iraqi people want a representative government. 
But that same majority has been taught by experience for over a 
generation, to keep their head down because it gets blown off 
if they rise up. And so we have this daunting responsibility of 
trying to figure out how to provide security, not just against 
insurgency, but so that an Iraqi mother or father can allow 
their daughter to walk down the street and go to the equivalent 
of a local grocery store, to buy the local loaf of bread, 
without getting raped, or kidnaped, or sold into slavery, or 
any version thereof.
    And at the same time, there is an ongoing and 
understandable competition among the Iraqis, not only those who 
are the insurgents, but among the Iraqi people who want to have 
a representative government, on who will control that 
government. It has happened in every single experience in the 
last 300 years, when any form of a government has been toppled 
and another one is in the making.
    Now, it is either going to be done through some form of a 
democratic process, or civil war, but, there is a competition. 
And there is another thing that we know for certain from our 
experience, not just in Iraq and in the Middle East, but 
anywhere where we have had experience. And that is that to the 
degree to which that competition takes place, there is a 
predictable rise in the appeal to nationalism. The competing 
forces seeking to become the new governing body are going to 
appeal to nationalism. We do it in our elections, and everybody 
does it in every free and democratic election.
    And to the degree that nationalism is a factor, there is 
going to be this second conundrum--the very institution, the 
very entity most vital to Iraqi success, the United States, is 
going to be seen as something that cannot be embraced. They are 
not going to kiss us in public. This is a thing that is going 
to have to be done very deftly. So the very people that we're 
putting in place, or Mr. Brahimi is going to suggest we put in 
place, who are going to be the sort of institutional forerunner 
of what will become an Iraqi Government--we all know the 
process, but we don't say enough for the public--are going to 
be under pressure to distance themselves from us.
    They in turn have the responsibility, which is awesome, 
between June 30 and sometime in January, to hold an election, 
to put together a group which is going to write a constitution, 
who in turn then are going to hold an election, between January 
of this year and November or December of the following year, 
2006, that's going to produce a representative government.
    Now, we know how it works to the extent that any portion of 
that leadership is seen to be relying upon, or taking orders 
from, or being the handmaiden of a foreign power, it is going 
to damage their ability to become the party, or the parties, to 
whom the Iraqi people turn, to say, you lead us in the future.
    I know you know all of this, John, better than I do. But it 
seems to me therein lies the incredibly difficult role that you 
have to fulfill. The higher your profile, the more you will be 
seen getting into the automobile and riding to wherever this 
interim government is meeting to discuss with them plans, the 
more they're going to want to keep you at arm's length so they 
don't appear to be doing the bidding, whether they are or not, 
of the United States.
    So the critical question to me is, who is going to be 
perceived as the Iraqi interim government's primary partner in 
providing the support we acknowledged that they need--
militarily, politically, and economically? Will it be you, the 
Ambassador of the United States? Or will it be perceived as a 
much broader coalition, including those countries around the 
world that have the most at stake in seeing that there is 
success in establishing a representative government in Iraq.
    As Senators Lugar and Hagel, and myself and others in this 
committee travel the world, we hear constantly and I don't want 
to get him into trouble, but my colleague from Nebraska was 
saying he was recently in Europe and I think he heard the same 
kinds of things again. I may be mistaken, but that (a) they 
didn't like the way that we went about this. But, (b), they 
know that if this thing ends up in a civil war--they have a 
real problem.
    And so for the cynics in the press and in other places, and 
I don't say that in a critical sense, there's a reason to be 
cynical, who say why would anybody want to help? They didn't 
like what we did, they didn't like the way we did it, they 
don't like the way were doing it now, so why would they 
possibly come along and help. You at the United Nations 
understand, better than anybody, they can't afford a civil war 
either.
    Over 10 percent of France's population is Arab speaking, my 
best guess is that it is closer to 14 percent is Muslim. In 
Germany they already have an incredibly delicate situation in 
what I would characterize as their occasional xenophobia. 
They're concerned about Turkish immigrant workers. If you think 
we have a problem with being concerned, our country is so much 
more broad minded in my view about Mexican workers. Not so in 
Germany.
    They are worried about a civil war, and what that would 
mean to the Kurds, and the Turks, and what would happen in 
refugee flows. So these countries have a serious stake in the 
outcome, which I was presuming and hoping with serious 
diplomacy of the caliber that you can provide, may very well 
get them in the game, in a way that they haven't been so far. 
Like you have gotten them--and I credit you--into Afghanistan. 
Afghanistan is a NATO operation in part. French and German 
soldiers are in Afghanistan, French soldiers standing side-by-
side with Americans in Tora Bora, and heading up into the most 
dangerous parts of that country.
    So the question is going to be, in my view, who is it going 
to be, you? Right now we have a guy named Bremer, who is a 
first rate individual, heading up a coalition of sorts, not the 
coalition most Americans think, but it is a coalition 
nonetheless. And up to recently Jeremy Greenstock, another 
serious Ambassador, has been part of his operation. But as a 
staff member of mine said, I think appropriately, are we going 
to go from the image of ``Clark Kent''to Superman? You know, 
we're not wearing our ``S'' in this coalition.
    You're the Super Ambassador. You are there representing one 
of the largest embassies we'll have in the world, allegedly. 
You're going to be there, what is your role? And so in a sense, 
how we generate a much broader coalition of countries, with the 
most at stake in Iraq, and a representative who speaks in their 
name, it may be useful for you to have that--and I'll put it in 
cynical terms--that foil at least, so that it is not just you, 
not just the United States.
    When Iraqis wake up on July the first, they will see at 
least 135,000 American forces still there. I support that, I'm 
not being critical of that. But let's look at what they're 
going to see when they wake up after sovereignty is turned 
over. 135,000 minimum American forces there, a presence 
absolutely necessary for their own security.
    But as the President himself said, he can understand 
notwithstanding the fact that they need the forces and know 
that they have to be there, why that are--and I think I'm 
quoting him in saying--chafing under occupation forces. He 
understands that, we understand that. Again, that's another 
conundrum here.
    But it would be a profound mistake, in my view, to compound 
our military presence with the perception that the caretaker 
government to whom we're handing over sovereignty is taking its 
political cues from you. You should not become the new 
proconsul once Ambassador Bremer leaves. Otherwise, we will be 
continued to be viewed as the occupier. We will continue to be 
viewed and blamed for everything that goes wrong. We will 
continue to be viewed as the target of every malcontent of the 
country.
    And that caretaker government, in my view, I predict, will 
try to distance itself from us. There must be a fundamental 
change in the circumstance of the Iraqi people on June 30, and 
that change must be for them to see that we are no longer the 
only outfit calling all the shots.
    We would be wise to work out an arrangement ahead of time 
whereby the major powers, notice I didn't say the United 
Nations, and our Arab allies like tth contact group that 
existed before, like we had in Afghanistan, or like what we had 
in the Balkans, to bless what Brahimi suggests--which the 
President is going to bless--and hopefully call for a Security 
Council resolution that would mandate a Brahimi-like figure to 
be in Iraq along with you, and not you alone.
    We should have this agreement blessed by the United 
Nations, so that we can, as George Will so aptly put it, and I 
quote, ``usefully blur the clarity of U.S. primacy.'' 
``Usefully blur,'' George Will's words not mine. He's more 
articulate and I am. He's right.
    We will be the primary power. But it is important to give 
everybody a little bit of plausible deniability here, 
particularly this caretaker government.
    I and others in this committee have called upon others to 
change the model in Iraq so that we can take the American face 
off the occupation. And there are signs that this is happening. 
Maybe I am just a cockeyed optimist, but they are signs that 
the administration is changing course. And I don't say that in 
a derisive way, I say that in a complementary way. I hope I am 
reading the signs correctly.
    The President has endorsed the efforts of Ambassador 
Brahimi to establish a caretaker government. The administration 
has said that it will seek a U.N. Security Council resolution 
that could get international buy-in that we desperately need.
    We have invited back qualified members of the old Iraqi 
military to try to have them be the prime movers in 
establishing a new Iraqi military, reversing the indiscriminate 
implementation of the de-Baathification policy. My staff is 
looking into this for me, but I don't recall, and my more 
informed colleagues may, in Germany that we blanketly said that 
anyone who had been a member of the Nazi party cannot 
participate in anything. We had gradations. As I understand it, 
that is basically what is beginning to happen now. We're going 
back and looking. Anyone that was a Baathist, we said up until 
now, can't be a teacher, for example. Maybe not such a good 
idea.
    There is, in my view, and actual, and significant, and 
necessary, and wise reconsideration of the policy initially 
implemented. And the administration seems to be distancing 
itself--maybe this is where the wish is the father of the 
thought, in distancing itself from an unpopular, exile leader 
like Ahmed Chalabi. I hope to the Lord that is correct, because 
we need to establish legitimacy.
    So there's hope that we can still get this right. But the 
President has yet to make clear how he sees our role in Iraq 
after June 30. Will we finally make Iraq the world's problem as 
well? Or will it remain our problem solely in the eyes of 
Iraqis, and in terms of the burden we shoulder?
    I hope that we can use this hearing, Mr. Chairman, to get 
some answers to those questions, and to the many questions that 
we still have about the administration's plan for success.
    Here's what I hope we'll be able to find out:
    One, what role have you been told, Mr. Ambassador, will be 
yours to play? Not that I expect you to have all of the 
answers, but what do you think your role will be? Will it be as 
a traditional Ambassador in a country, or will it be, in my 
phrase, and a phrase used by Mr. Bremer in another context, 
would it be the proconsul role?
    Second, how do you plan to interact with the Iraqi 
caretaker government--I'm having trouble with that phrase, as 
they are having trouble envisioning what it is.
    If it makes a decision that we don't like, what are we 
going to do? For example, what happens if the deal is cut that 
the role of the women will be more like that of traditional 
sharia? Will we call them into account?
    Third, how are discussions going in New York on the so-
called mega-resolution, not my term? How will that resolution 
address the questions of balancing Iraqi sovereignty while 
retaining freedom of action for American forces? For example, 
if there is another standoff in Fallujah or Najaf and the U.S. 
military wants to intervene, but the caretaker government says 
no, who carries the day? My guess is we're going to have to 
work and negotiate that as we go. I don't know how you write 
that absolutely.
    Fourth, on weapons inspections. Why are we pressing for the 
dissolution of UNMOVIC? Why not let you UNMOVIC issue its own 
report after the Iraqi Survey Group completes its work? It 
seems to me that we constantly undermine our credibility among 
our colleagues. Wouldn't it be helpful for UNMOVIC to confirm 
the ISG's findings. Isn't the continued existence of UNMOVIC a 
small price to pay if it helps get a consensus on a resolution.
    Now, you're more qualified to answer that question than 
anybody. Maybe we don't need that. Maybe we can disengage 
UNMOVIC, get rid of it, and still get a consensus.
    And fifth, with regard to reconstruction, will you have 
full control over the reconstruction funds that are granted by 
us, the Congress, or will a large portion of that be managed by 
the Pentagon, with only nominal oversight on your part. In 
other words, who do we hold accountable? Who do we hold 
accountable on how the money is spent?
    My dad used to say when I was a kid, God rest his soul, I 
was the oldest in the family and he would leave, and I would 
say, Dad, why am I responsible? He said, ``I like to know who 
to hold accountable when I come back.'' Well, you know, who do 
we hold accountable?
    And sixth and the last thing, Mr. Chairman, how can we best 
prevent corruption in Iraq particularly as it relates to our 
assistance dollars. There are reports now that about 20 percent 
of our reconstruction dollars have been lost to corruption. At 
the same time, as much as 25 percent of the reconstruction 
money is going to pay for security for the re-constructors. 
That means nearly half of the $18.4 billion that we've 
appropriated last year could be lost to security and 
corruption. Maybe that's a necessary price. But I don't think 
that it's acceptable.
    So, Mr. Chairman, we have a lot a ground to cover and I'm 
taking a lot of time to indicate what I hope gets covered. But 
as what was stated by you before I walked in, I am told, and 
has been stated by the Senator from Connecticut, this is an 
incredibly important juncture in the history of the beginning 
of the 21st century for us.
    And I think, and it may not be the last chance, Mr. 
Ambassador, but it may be close to our last chance to get it 
right in Iraq. We can't squander this opportunity, and in my 
view, if you are Superman, figuratively speaking, there is no 
way that you can get the job done--there's no way that you can 
get the job done. If you're able to have a lower profile, with 
the significant diplomatic capability that you have, with the 
rest of the world more engaged than they are now, we have got a 
shot to deliver for the Iraqi people a circumstance where they 
will raise their head.
    I conclude where I began, we cannot want a representative 
government in Iraq more than the Iraqi people. If that's the 
formula, we've failed. But with you there I think we have got a 
chance, and I really personally, I want to tell you, it takes 
political, moral, and physical courage for you to take on this 
responsibility. We owe you a debt of gratitude. And we owe your 
family a debt of gratitude. I appreciate your willingness to do 
this.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you very much, Senator Biden.
    Mention has been made of your family, Ambassador. Would you 
like to introduce Mrs. Negroponte and the daughters who have 
accompanied you?
    Ambassador Negroponte. My wife Diana, my two children, 
Marina and Alejandra.
    The Chairman. We're delighted that you are here and we 
appreciate your coming to the hearing.
    Ambassador, you have heard expressions of support from all 
members who have attended the hearing this morning. They have 
been genuine. My hopes are that you will be encouraged by this. 
But now we hope to be encouraged by your testimony.
    All of the testimony that you have prepared will be made a 
part of the record in full. You may proceed as you wish. But do 
not feel a need for abbreviation when the points need to be 
made. It is tremendously important for your views to be heard, 
and we're here to have them.
    Would you please proceed.

STATEMENT OF AMB. JOHN D. NEGROPONTE, PERMANENT REPRESENTATIVE 
  TO THE UNITED NATIONS, NOMINEE TO BE U.S. AMBASSADOR TO IRAQ

    Ambassador Negroponte. Thank you very much, Mr. Chairman, 
Senator Biden, and distinguished members of the committee.
    You took the words out of my mouth, Mr. Chairman. The first 
thing I was going to say, was how encouraged I was by the 
expressions of support that all the Senators have expressed as 
I have prepared to undertake this assignment, if of course, 
confirmed by the Senate.
    I also want to acknowledge the understanding, support and 
sacrifice that my wife Diana, my two children, Marina and 
Alejandra, who are here with me today, and my three other 
children who could not be with us, have displayed as we go 
forward in this process. I couldn't do it without the support 
and understanding of my family.
    Mr. Chairman, I am pleased to appear before you today as 
the President's nominee to be the first United States 
Ambassador to a liberated Iraq. This is, by the way, an 
abbreviated version of the statement that I have submitted for 
the record, Mr. Chairman.
    I am honored by the confidence shown in me by President 
Bush and Secretary Powell. I support the fine work that this 
committee has done, to shape, guide, and inform the United 
States policy on this most crucial of foreign policy issues. 
And, if confirmed, I look forward to close consultation in the 
weeks and months ahead.
    Mr. Chairman, in your hearings on Iraq, your committee 
clearly demonstrated its concerns about the gravity of the 
situation, and the complexity of the challenges that we face. 
My colleagues have addressed many of the important questions 
that you raise, and shared with you some of the successes 
achieved thus far in Iraq.
    But, these successes will be for naught if Iraqis cannot 
weave them into the permanent fabric of their society, building 
on these successes to produce a stable, peaceful and democratic 
Iraq, our core strategic goal.
    The sober reality, Mr. Chairman, is that destructive and 
divisive forces are working to undermine progress in Iraq. 
Coalition forces and Iraqi and international civilians are 
targeted by disparate elements opposed to a democratic Iraq. 
Our challenge is to establish the conditions by which the Iraqi 
people can pursue their interests through legitimate political 
channels, rather than through violence and retribution.
    The courage shown by all Americans working on the ground in 
Iraq, in dangerous and uncertain conditions, to support the 
principles that we and our Coalition partner share with Iraqis, 
is humbling. The men and women of our Armed Forces, of our 
diplomatic service, and from all walks of American life, who 
have come forward to serve our nation in Iraq have made great--
and too often the ultimate--sacrifices. We owe it to them to 
proceed with the utmost in forethought, resolve, and prudence 
as we enter the next phase.
    A prosperous, stable and democratic Iraq is central to our 
national interest and to the successful campaign against global 
terror.
    All of our efforts over the past year have sought to ensure 
that the new Iraq will be a constructive presence in the 
region, and that its government be at peace with its neighbors, 
and with its own citizens.
    In partnership with the people of Iraq, the United States 
Mission will support democratization and rule of law. It will 
promote economic development, and it will support efforts to 
restore security and eliminate terrorism.
    Visionary and courageous Iraqis developed a timetable and 
program for getting to democracy in the November 15 agreement, 
which they subsequently reaffirmed in the Transitional 
Administrative Law. The Mission will fully support, in 
cooperation with the United Nations, the international 
community, and independent Iraqi electoral authorities, all 
aspects of electoral preparation.
    In parallel with our support for elections, we will 
continue to encourage Iraqis, as they establish effective 
governing institutions in Baghdad and in the provinces.
    Mr. Chairman, the United States is providing unprecedented 
funding and technical assistance to help Iraq achieved a level 
of prosperity commensurate with its natural and human resources 
and its proud history. Working with the Iraqi authorities, who 
best know the needs of their people, the Mission will oversee 
the vast array of reconstruction projects underway in Iraq, we 
will ensure that these projects, financed with taxpayers' 
funds, serve our policy goals and the priority needs validated 
by the Iraqis themselves.
    And we will hold these projects to the highest standards of 
financial accountability. We will encourage Iraq's new leaders 
to choose sound economic policies, and to enforce high 
standards of integrity in public administration, in order to 
stimulate growth and to create jobs.
    As the security situation improves and Iraq's oil 
production capacity increases, we expect that Iraq's share of 
reconstruction expenses will gradually increase, and once again 
private investment will provide opportunities for all Iraqis.
    The key to achieving lasting security in Iraq is building 
and strengthening the capacity of Iraq's security services to 
deal with both domestic extremists and foreign terrorists. I 
can think of no more important task. We must do everything 
within our power to help the government and the courageous 
people of Iraq develop the capacity to defend themselves, and 
maintain the kind of peace and tranquility that will permit 
their nation to go about its legitimate civilian pursuits.
    A robust and multinational force presence will be critical, 
and I will work hard in my current capacity, as Representative 
to the United Nations, to obtain continued Security Council 
authorization for such a force.
    There are still unanswered questions about the structure, 
composition and powers of the Iraqi interim government to which 
I will present my credentials. The process over the next 60 
days will have broad implications. In concert with Iraqi 
political figures and representatives of our government, 
Ambassador Lakhdar Brahimi has been developing plans for the 
new government, its structure, selection process, and its 
ultimate composition.
    Later today, in my capacity as our Permanent Representative 
to the United Nations, I plan to attend Ambassador Brahimi's 
briefing to the Security Council about his proposals. I would 
simply note that over the past 2\1/2\ years, I have had the 
opportunity to work with Ambassador Brahimi on the post-
conflict situation in Afghanistan. I have a great deal of 
respect for his ability to engage disparate, even warring 
groups, and move them toward productive dialog, consensus, and 
the establishment of viable political institutions. We will 
remain engaged with Ambassador Brahimi in the critical weeks 
ahead.
    The prospect of legitimacy that the United Nations can 
bring to the process of political reconciliation is a point of 
crucial interest in both the region and the broader 
international community. With an expanded United Nations role 
in the political arena, I believe that it will be easier to 
generate the international support that the successful 
rehabilitation of Iraq requires.
    I want to be clear that a vital United Nations role does 
not come at the expense of United States influence or interest. 
Our efforts can be well coordinated and complementary. There is 
ample evidence across a broad range of situations that a strong 
partnership with the international community, including the 
United Nations organization, is in our strategic interests.
    Mr. Chairman, I am impressed with the work of the 
Interagency Transition Planning Team, led by Ambassador 
Ricciardone and Lieutenant General Kicklighter, both of whom 
are with us today, to structure our United States Mission in 
Iraq so that it will be prepared to pursue these objectives and 
carry forward the valuable work of the Coalition Provisional 
Authority. We anticipate about 1,000 direct hire Americans 
serving under the Ambassador's authority. Drawing on the 
resources and skills of all U.S. Government agencies present in 
Iraq, we will represent United States interests and offer 
support to the people and Government of Iraq as they renew 
their country.
    Mr. Chairman, I have the greatest respect and admiration 
for Ambassador Bremer's accomplishments in Iraq under the most 
difficult circumstances. He is a personal friend, as well as a 
colleague, and I value highly his historic contribution to our 
efforts in Iraq.
    However, my role in Iraq will be fundamentally different 
from that of Ambassador Bremer. Whereas the Coalition 
Provisional Authority is the ultimate political authority in 
Iraq, the Embassy will be in a supportive, as opposed to a 
commanding role. Also, the Mission will be distinctly American, 
in contrast to the multinational character of the Coalition 
Provisional Authority.
    Nevertheless, we will continue our close relationship with 
our Coalition partners, multilateral organizations, and non-
governmental organizations, which are all vital to the 
advancement of our common interest.
    In regular consultation with the Secretary of State, I will 
provide policy direction and coordination for all U.S. 
Government activities in Iraq, with the notable exception of 
operations by United States forces under the area military 
commander.
    First among the duties of the Ambassador is to provide a 
safe environment for our Mission staff. I will work closely 
with the United States area military commander, and our own 
Bureau of Diplomatic Security, to ensure the security of our 
personnel.
    Mr. Chairman, as momentous as the transition to sovereignty 
for an interim government of Iraq will be, we should bear in 
mind that we are still in the early phase of Iraq's 
reconstruction and rehabilitation.
    The conclusion of the Coalition Provisional Authority on 
June 30 will mark a vital step toward realizing an independent, 
democratic and stable Iraq, at peace with its neighbors. I will 
see that the Mission is working to assist the people and the 
Government of Iraq to achieve these noble goals, while at the 
same time seeking to ensure that the resources of the American 
people, voted by the Congress to support our efforts, are 
wisely and efficiently utilized.
    With our help, the people of Iraq can overcome the trauma 
of Saddam's brutality and the intimidation of violent 
extremists seeking to do ill to the progress they have made so 
far. But, for these policies to succeed, we will need to 
proceed with resolve, constancy and unity of purpose.
    If confirmed, I would do my utmost to serve the 
administration and the American people to these ends. I look 
forward to working closely with the Congress in that effort.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Ambassador Negroponte follows:]

          Prepared Statement of Ambassador John D. Negroponte

    Mr. Chairman, Senator Biden, distinguished Members of the 
Committee, I am pleased to appear before you today as the President's 
nominee to be the first United States Ambassador to a liberated Iraq. I 
am honored by the confidence shown in me by President Bush and 
Secretary Powell. I support the fine work that this committee has done 
to shape, guide, and inform U.S. policy on this most crucial of foreign 
policy issues, and, if confirmed, I look forward to our continued close 
consultation in the weeks and months ahead. I know that members of this 
committee share my conviction that we must get Iraq right. I look 
forward to our discussion today and to sharing my thoughts on the 
mission of our soon-to-be opened Embassy.
    Mr. Chairman, in your hearings on Iraq, the committee clearly 
demonstrated its concerns about the gravity of the situation and the 
complexity of the challenges we face. My colleagues have addressed many 
of the important questions you raised and shared with you some of the 
successes achieved thus far in Iraq--holding dozens of free local 
elections, drafting the Transitional Administrative Law, and setting 
the date for direct nationwide balloting early next year. In addition 
there have been dramatic improvements in the provision of healthcare, 
infrastructure projects, and the spread of free media to name but a few 
examples. But these successes will be for naught if Iraqis cannot weave 
them into the permanent fabric of their society, building on these 
successes to produce a stable, peaceful and democratic Iraq--our core 
strategic goal.
    The sober reality is that destructive and divisive forces are 
working to undermine progress in Iraq. Coalition forces and Iraqi and 
international civilians are targeted by disparate elements fanatically 
opposed to a democratic Iraq. These elements are exploiting and seeking 
to deepen divisions among Iraq's ethnic, religious and tribal 
communities, exacerbated by many years of manipulation by Saddam's 
despotic regime, in order to destabilize Iraq. Our challenge is to 
establish the conditions by which the Iraqi people can pursue their 
interests--as well as celebrate their differences--through legitimate 
political channels, rather than through violence and retribution. In 
short, we must support Iraqis as they build the institutions necessary 
to do away with Saddam's criminal political system and the winner-take-
all attitude that has ruled Iraq for decades.
    The courage shown by all Americans working on the ground in Iraq, 
in dangerous and uncertain conditions, to support the principles we and 
our Coalition partners share with Iraqis, is humbling. The men and 
women of our armed forces, of our diplomatic service and from all walks 
of American life who have come forward to serve our nation in Iraq have 
made great--and too often the ultimate--sacrifices. We owe it to them 
to proceed with the utmost in forethought, resolve and prudence as we 
enter the next phase.

                               THE VISION

    A prosperous, stable and democratic Iraq is central to our national 
interest and to the successful campaign against global terror. With the 
overthrow of Saddam Hussein we eliminated a major threat to 
international peace and security. In the last two decades he invaded 
his neighbors twice, used WMD against his neighbors and his own people, 
undertook clandestine nuclear, chemical, and biological weapons 
programs, and massacred hundreds of thousands of Iraqi citizens. Ending 
the Saddam regime was the first step. All of our efforts over the past 
year have sought to ensure that the new Iraq will be a constructive 
presence in the region, and that its government be at peace with its 
neighbors and with its own citizens. When confronted with complex and 
dangerous challenges as we push toward that strategic goal, we must 
recall that our extraordinary efforts in Iraq are not only for the 
Iraqi people--but also for our own.

                  DEMOCRATIZATION AND THE RULE OF LAW

    In partnership with the people of Iraq, the U.S. Mission will 
support democratization and rule of law, promote economic development 
and support efforts to restore security and eliminate terrorism.
    Visionary and courageous Iraqis developed a timetable and program 
for getting to democracy in the November 15 agreement, which they 
subsequently reaffirmed in the Transitional Administrative Law. The 
Mission will fully support, in cooperation with the United Nations, the 
international community, and independent Iraqi electoral authorities, 
all aspects of election preparation. Such support is critical if there 
are to be elections for a Transitional National Assembly no later than 
the end of January 2005. In this regard, the expertise of the United 
Nations will be particularly valuable; it is already helping the Iraqis 
and the Coalition Provisional Authority establish an independent 
Electoral Commission, an electoral law and a political parties' law. If 
confirmed, I will work with the Iraqis to facilitate the United 
Nations' active engagement as Iraq prepares voter rolls, trains 
election workers, designates polling stations, and distributes ballots.
    In parallel with our support for elections, we will continue to 
encourage Iraqis as they establish effective governing institutions in 
Baghdad and the provinces. They will also be supported by a number of 
provincial branch offices, as well as by Foreign Service Officers 
working in support of Coalition military units and in cooperation with 
local communities. At the same time, U.S.-funded education programs 
will help Iraqis recognize and exercise their rights and 
responsibilities in a democratic system.

                        ECONOMIC RECONSTRUCTION

    The United States is providing unprecedented funding and technical 
assistance to help Iraq achieve a level of prosperity commensurate with 
its natural and human resources and proud history. Working with the 
Iraqi authorities, who best know the needs of their people, the Mission 
will oversee the vast array of reconstruction projects underway in 
Iraq. We will ensure that these projects, financed with taxpayers' 
funds, serve our policy goals and the priority needs validated by the 
Iraqis themselves, and we will hold these projects to the highest 
standards of financial accountability.
    We will encourage Iraq's new leaders to choose sound economic 
policies and to enforce high standards of integrity in public 
administration in order to stimulate growth and to create jobs.
    As the security situation improves and Iraq's oil production 
capacity increases, we expect that Iraq's share of reconstruction 
expenses will gradually increase, and that private investment will flow 
into a country once again rich in opportunity for its people.

                     SECURITY AND COUNTERTERRORISM

    The key to achieving lasting security in Iraq is building and 
strengthening the capacity of Iraq's security services to deal with 
both domestic extremists and foreign terrorists. I can think of no more 
important task. We must do everything within our power to help the 
government and courageous people of Iraq develop the capacity to defend 
themselves and maintain the kind of peace and tranquility that will 
permit their nation to go about its legitimate civilian pursuits. While 
the theater commander will implement these training responsibilities at 
this time, I can assure him of my full and complete support.
    A robust multinational force presence will be critical, and I will 
work hard in my current capacity to obtain continued Security Council 
authorization for such a force.

                          THE NEXT SIXTY DAYS

    There are still unanswered questions about the structure, 
composition and powers of the Iraqi Interim Government to which I will 
present my credentials. The process over the next sixty days will have 
broad implications. In concert with Iraqi political figures and 
representatives of our Government, Ambassador Lakhdar Brahimi has been 
developing plans for the new government, its structure, selection 
process, and its ultimate composition.
    Later today, in my capacity as our Permanent Representative to the 
United Nations, I plan to attend Ambassador Brahimi's briefing to the 
Security Council about his proposals, which will be followed by a 
discussion within the Security Council. I would simply note that over 
the past two and a half years, I have had the opportunity to work with 
Ambassador Brahimi on the post-conflict situation in Afghanistan. I 
have a great deal of respect for his ability to engage disparate, even 
warring, groups and move them toward productive dialogue, consensus and 
the establishment of viable political institutions. We will remain 
engaged with Ambassador Brahimi in the critical weeks ahead.
    The prospect of legitimacy that the United Nations can bring to the 
process of political reconciliation is a point of crucial interest in 
both the region and the broader international community. With an 
expanded United Nations role in the political arena, I believe that it 
will be easier to generate the international support that the 
successful rehabilitation of Iraq requires. Secretary General Annan's 
and Ambassador Brahimi's contributions may well open the door to 
creative thinking about ways in which the international community, as 
well as the Coalition, can further contribute to the process of 
rehabilitating Iraq, both politically and economically.
    I want to be clear that a vital United Nations role does not come 
at the expense of the United States' influence or interests. Our 
efforts can be well coordinated and complementary; there is ample 
evidence across a broad range of situations that a strong partnership 
with the international community, including the United Nations 
organization is in our strategic interest.

                     TRANSITION FROM CPA TO EMBASSY

    Mr. Chairman, I am impressed with the work of the Interagency 
Transition Planning Team, led by Ambassador Ricciardone and Lt. General 
Kicklighter, to structure our U.S. Mission in Iraq so that it will be 
prepared to pursue these objectives and carry forward the valuable work 
of the CPA. We anticipate about 1000 direct-hire Americans serving 
under the Ambassador's authority. Drawing on the resources and skills 
of all USG agencies present in Iraq, we will represent U.S. interests 
and offer support to the people and government of Iraq as they renew 
their country.
    Mr. Chairman, I have the greatest respect and admiration for 
Ambassador Bremer's accomplishments in Iraq under the most difficult 
circumstances. He is a personal friend as well as a colleague and I 
value highly his historic contribution to our efforts in Iraq.
    However, my role in Iraq will be fundamentally different from that 
of Ambassador Bremer. Whereas the CPA is the ultimate political 
authority in Iraq, the Embassy will be in a supportive, as opposed to a 
commanding role. Also, the Mission will be distinctly American, in 
contrast to the multinational character of the CPA. Nevertheless, we 
will continue our close relationship with our Coalition partners, 
multilateral organizations, and NGOs, who are all vital to the 
advancement of our common interests.
    In regular consultation with the Secretary of State, I will provide 
policy direction and coordination for all USG activities in Iraq, with 
the exception of operations by U.S. forces under the area military 
commander. First among the duties of the Ambassador is to provide a 
safe environment for our Mission personnel. I recognize that we are 
deploying civilians to Iraq in a wartime environment--circumstances 
from which we normally evacuate our people. I will work closely with 
the U.S. area military commander to ensure the security of our 
personnel.

                               CONCLUSION

    As momentous as the transition to sovereignty for an Interim 
Government of Iraq will be, we should bear in mind that we are still in 
the early phase of Iraq's reconstruction and rehabilitation. The 
conclusion of the Coalition Provisional Authority on June 30 will mark 
a vital step towards realizing an independent, democratic and stable 
Iraq, at peace with its neighbors. I see my mission as working to 
assist the people and the government of Iraq to achieve these noble 
goals, while at the same time seeking to ensure that the resources of 
the American people, voted by our Congress to support our efforts, are 
wisely and efficiently utilized.
    With our help, the people of Iraq can overcome the trauma of 
Saddam's brutality and the intimidation of violent extremists seeking 
to derail the progress they have made so far. But for these policies to 
succeed, we will need to proceed with resolve, constancy and unity of 
purpose.
    If confirmed, I will do my utmost to serve the Administration and 
the American people to these ends I look forward to working closely 
with the Congress in that effort.
    Thank you.

    The Chairman. Thank you very much, Ambassador Negroponte, 
for that very important opening statement.
    We'll have a round of questions now, with 10 minutes per 
member. I would like to proceed with four items. I will 
endeavor to do so succinctly, so that you will have an ample 
opportunity to try to address the situation.
    First of all, you mentioned that even on this very day, you 
will be in the presence of Ambassador Brahimi and other members 
of the Security Council, to hear his plan. Already there are 
suggestions, and I cite the words of Ahmed Chalabi, on 
television this Sunday, that he and maybe other members of the 
Governing Council, are not at all certain that Mr. Brahimi is 
the right one to name people for an Iraqi Government. They are 
not certain that the Council of 24 ought to be displaced.
    Furthermore, he mentioned the Transitional Administrative 
Law that the Council has promulgated, which, as you mentioned, 
presumably serves as the rules of the road for the foreseeable 
future. Chalabi cited the Transitional Administrative Law as a 
product of that Council.
    My first question, is one that you can't resolve here 
today, but you will be able to do so after you are confirmed 
and arrive in Iraq. This emphasizes the importance of getting 
on with it rapidly. You will be trying to work with the Iraqis 
to make certain that these people who have been named are 
acceptable. The Iraqis in fact are going to see these people as 
worthy of the sovereignty that we are passing on. The President 
has indicated that we're prepared to accept Brahimi's 
suggestions.
    Second, mention has been made in the press, even yesterday, 
in the Washington Post in a front-page story, that the Security 
Council resolution, or resolutions, may be difficult. This 
brings back to the fore much of the discussion that occurred in 
previous Security Council resolution efforts, in which you were 
so vitally involved, and which were successful in the first 
instance, but which met with difficulty in the second instance, 
before the war.
    Many of the old feelings may be back as we try to find a 
Security Council resolution undergirding what we are going to 
do. That is not news to you. You'll be seeing your fellow 
members, even this afternoon. That's one of the values of this 
nomination--namely, your hands-on experience with these 
parties. At the same time, please give us some assurance of how 
you would work through the Security Council resolution, as well 
as its importance.
    Third, you have outlined what you believe your relationship 
with United States military in Iraq will be. That is, as is 
clear from your testimony, you have said that with the 
exception of operations by U.S. forces, you will provide policy 
and coordination direction for other activities.
    The military side of this, and the security side, are 
extremely important. It is not that you are attempting to get 
into the chain of command, but at the same time, what they do, 
and how they perform, are going to have a great deal to do with 
your success, as well as the success of the Iraqi Government.
    And fourth, what will be the relationship of the Iraqi 
Government with the United States Armed Forces, and/or other 
Coalition forces? I raised this question because even over this 
past weekend Ambassador Brahimi has been quoted as suggesting 
that we should be very careful, for example, in Fallujah.
    Here in our hearings we had one witness after another, and 
as did the Armed Services Committee, pointing out that security 
is a necessity, and that nothing proceeds very satisfactory, 
whether it be new investment, or whether it be Iraqis getting 
their own oil, as we saw with that surprise attempt to attack 
their own oil facilities out of the blue over the weekend. To 
say the least, not everyone wishes the Iraqis well, but we must 
not deprive them of their money and their oil.
    If you will, please discuss these problems. I have offered 
a context which you may or may not find useful, but to which 
you might refer as you're coming on stage, early in May, along 
with the Brahimi nominees, people who are already there, the 
Armed Forces, the relationship with our Armed Forces and with 
others. You may be the major organizer of the upcoming 
discussion regarding what happens when the curtain comes up 
July 1.
    Absent all of these rehearsals offstage beforehand, there 
is likely to be a great deal of turmoil, and perhaps once 
again, charges for which we are not well prepared, that we have 
not planned sufficiently. You have outlined some plans, and I 
want to get some feel of how you would execute those, 
especially according to these four guidelines that I have 
suggested.
    Ambassador Negroponte. Thank you, Mr. Chairman.
    First of all, and this is not a cop-out, it is just that we 
have been so expeditious about getting my nomination up here, 
that it has essentially been 8 days since the President 
announced his intention to nominate me. So I do not purport to 
be an instant expert on Iraq.
    The Chairman. I understand.
    Ambassador Negroponte. I just want to be clear on that. 
Although I am doing my best to learn--the learning curve is 
steep.
    Let me, on your first question about the formation of the 
transitional government and Ambassador Brahimi's comments, and 
also, the comments of Mr. Chalabi on television, over the 
weekend.
    The plan, as I understand it, of this interim government on 
the 1st of July, Mr. Brahimi's charge is to help facilitate the 
creation of that government. He has already been out for 
extensive consultations. And my understanding is that he 
intends to return early next month, possibly as early as next 
week, to continue that process of talking to various political 
groups, and trying to identify future members of this 
transitional government.
    That is to say, and I understand that he currently 
visualizes a government that would consist of a Prime Minister, 
and then a number of cabinet ministers. And it would also be 
his thinking, his current thinking, that there would also be a 
President, although the President would not have as much--
wouldn't have the kind of operational authority in that 
government.
    So that is the intent. And as I said in my statement, he 
would engage in this consultative process with the Iraqi 
political forces, with ourselves, with other Coalition partners 
as well. He would get ideas from all quarters.
    I have no doubt in my mind he is the right person to carry 
out that job. And he has got that responsibility at the moment. 
And I think that it is important that he carries through with 
that responsibility. And, as Senator Biden mentioned, 
Ambassador Brahimi has had considerable success in Afghanistan, 
where he helped facilitate the standing up of that government. 
And he has had other similar successes in the past, as well.
    So, I'm sure there are going to be some comments along the 
way, and some doubts that might be expressed from one quarter 
or another, because after all this is a difficult and 
complicated process. And there are all sorts of cross-currents 
of interests that are at stake here. But the goal is to 
encourage and do everything that we can to ensure that that 
government is established. Probably identified earlier--much 
earlier than the 1st of July, perhaps at the beginning of June 
I am just saying, for example, so that it can begin to ready 
itself to take over its responsibilities on the 1st of July.
    Where is the Security Council's resolution going? I saw the 
speculative piece yesterday that appeared in the Washington 
Post. We're beginning that process and I would expect that 
concurrently with Ambassador Brahimi's efforts to identify--
help identify--a transitional government, we are now going to 
start working on the issue of a Security Council resolution. 
And I would expect that we're going to have that debate during 
the month of May. I am reluctant to try to give you a target 
date for getting the resolution passed because I have found my 
experience to be during the past 2\1/2\ years that Iraq 
resolutions tend to be quite time-consuming.
    But I also am optimistic that a workable resolution can be 
achieved. I think after the problems we had a year ago last 
winter, we have actually experienced some considerable success 
in passing the other key resolutions with respect to the Iraq 
question since that time. And that resolution, I think, is 
going to deal in some way with the question of the transition--
the transitional government, the issue of a multinational 
forces, and perhaps a number of other questions as well.
    You asked me about my relations with the United States 
military. First of all, let me say that I have had considerable 
experience in that area, going back for years to when I was a 
junior diplomatic officer in Vietnam. I, of course, had that 
kind of experience in Honduras. I have had it as a Deputy 
National Security Adviser, and I have also had it in the 
Philippines. So I'm no stranger to the question of working on a 
team-work basis with our colleagues in uniform.
    I think it is going to be an extremely important 
relationship, but they have their responsibilities. The theater 
commander is responsible for the command of those United States 
forces, and I am a strong believer in unity of command. But, 
where issues and problems come up that have political 
implications, and political ramifications for the people and 
government of Iraq, I have no doubt that the military commander 
and myself will be in as close as possible communication.
    You asked the question of what will be the relationship of 
the Iraqis with the United States Armed Forces. And, as you 
know, initially it is visualized that Iraqi security forces 
will come under the command of the multinational force. And 
this approach is rooted in the belief that, at this point in 
time, the security services and the Armed Forces of Iraq are 
simply not sufficiently numerous or equipped to take on that 
responsibility for themselves. But as I said in my statement, 
we have no more important goal, in my judgment, than to 
encourage the development of that capacity.
    Now, there will be some legal issues with respect to this 
question. Some of them are already dealt with in the 
resolution, Security Council Resolution 1511. Some of them are 
dealt with in the Coalition Provisional Authority's Order 
Number 17. And some of them are dealt with in the Transitional 
Administrative Law. But, I have no doubt that this question 
will also have to be dealt with in the Security Council 
resolution.
    The related question is what happens when situations arise 
that are of great political sensitivity, and if the Iraqis 
should favor--the political leadership, for example--should 
favor one particular strategy and our military might favor 
another approach. Well, these are the kinds of questions that I 
think that our diplomacy is going to have to deal with.
    And I think that the most important thing, in this regard, 
is to establish from the outset effective lines of 
communication between precisely those three entities, the 
multinational force on the one hand, the Mission on the other, 
and of course, the Iraqis on the third. And I think that that 
is going to be one of the principal challenges of our 
diplomacy, in Baghdad, in the foreseeable future.
    The Chairman. You have made a very important statement. The 
Iraqi security forces will be under the Coalition forces, that 
chain of command. Hopefully, as you visit with everyone, there 
will be the same understanding between the Iraqi civilians and 
their security forces, as the one that you have forged between 
our civilians, yourself and our military, if there is not vast 
misunderstanding among the trainees.
    I appreciate very much the detailed answers that you've 
given to these questions, with an understanding that this has 
been truncated due to your relatively brief period for 
preparation. You have been working at these issues for a long 
time, and your answers revealed that very clearly.
    Thank you.
    Ambassador Negroponte. Thank you.
    The Chairman. Senator Biden.
    Senator Biden. Thank you very much, Mr. Chairman.
    I'm going to pick up on some of the points made by you and 
the chairman, Mr. Ambassador.
    The doubts expressed about the nature of the transition, 
from the transition to the transition--and that we have 25 
people that are sitting over in Iraq now, including one of the 
most vocal of those, Mr. Chalabi, sitting on a council that 
came up with the Transitional Administrative Law, as to how 
Iraq will be governed between the time it was put in place, 
until the elections were held and a new permanent constitution 
is written.
    Now, you said that there are cross-currents of interests in 
Iraq. There are also cross-currents of interests within the 
administration, as it relates to Mr. Chalabi, the expatriates, 
and those persons who are now making up that 25-person 
commission. We don't know who, at least I don't know who Mr. 
Brahimi is going to recommend in this new caretaker structure. 
Except that we were told, unless it is changed, that there will 
be a President, a couple of Vice Presidents, there's a 
structural mechanism. It is not a 25-person council, which 
means that of the folks who are now in positions of authority, 
in this interim government in Iraq, not all of them are going 
to have a spot.
    I am not asking you who, what, or how. Do you know, and you 
may not know, whether or not within the administration, the 
American administration, President Bush's administration, if 
there is a unanimity of views on how we will proceed to this 
new caretaker model Brahimi is going to present. In other 
words, is there agreement that if Brahimi says--because the 
President says he's waiting for Brahimi--today, in New York, at 
the Security Council, his recommendation is as follows, and it 
includes the following persons, have we already basically 
signed on? Or is that something that we're going to attempt to 
negotiate, in terms of who the actual personnel are, that will 
make up the President, the two Vice Presidents, et cetera. Is 
there an agreement in the administration?
    Ambassador Negroponte. Well, certainly there's clarity as 
to who is carrying the ball. In terms of communicating with Mr. 
Brahimi, Ambassador Robert Blackwell has, in the White House, 
as the Deputy National Security Adviser, and he is a Special 
Envoy for Iraq, and he has actually spent a lot of time 
concurrently with Ambassador Brahimi on trips out there.
    And he and I, Ambassador Blackwell, consult very, very 
closely on these questions. And I think the agreement, is that 
Ambassador Brahimi--the view is that Ambassador Brahimi has the 
lead, there is no one else at the moment going out and playing 
the role of identifying--helping to identify--the transitional 
administration.
    Are you asking me does he have a blank check? I chose my 
words carefully. I said he has the lead----
    Senator Biden. Right.
    Ambassador Negroponte [continuing]. And he is doing this in 
consultation with others. Iraqis, the Coalition Provisional 
Authority----
    Senator Biden. The bottom line is, if he comes back with a 
recommendation that we sign-off on that does not include the 
expatriates as part of this new caretaker government, are you 
confident that there will be one voice coming out of this 
administration supporting that? If we decide that, if it's 
decided?
    Ambassador Negroponte. Well, this is a hypothetical 
question. What I can tell you is, we strongly support 
Ambassador Brahimi's efforts, and I think we will make every 
effort to give his recommendations the greatest possible 
weight.
    Senator Biden. Well, we're kind of dancing around this, and 
you're in a tough spot. As we all know, there's a vehement 
disagreement in the administration, between the CIA, the State 
Department, and the Defense Department, on the other side, 
about what role Mr. Chalabi and the expatriates should have 
played and should continue to play. I hope we get that 
straight.
    And whatever we decide, I hope there will be, for a change, 
a uniform view that everybody will fall in line once that 
occurs. And I predict to you, Mr. Chalabi will not go quietly 
into the night.
    But anyway, the second question to have is, and I am not--I 
don't expect to know the details, but do you envision, if and 
when Brahimi makes his presentation today, and if the 
presentation is fleshed out in terms of personnel, when it is 
fleshed out, and if the President signs-off on that, whatever 
it turns out to be, do you envision someone within the Security 
Council, not necessarily us, suggesting that the Council bless 
that Brahimi proposal, if we have already signed onto it?
    Is that a process? I mean, I'm not looking for exact steps 
in diplomatic terms, but I mean, is that what we're kind of 
looking for as part of the process of giving the United Nations 
a larger role?
    Ambassador Negroponte. Yes.
    Senator Biden. OK. Second question I have is that in 
whatever form a new U.N. Security Council takes, and you have 
indicated the elements it will encompass, at least in part, a 
blessing of the transitional governance body, as well as the 
multinational military force, authorizing it, in effect. And 
some other pieces.
    Do you envision that if we successfully accomplish a new 
U.N. resolution one of the by-products of that resolution will 
be an individual, a name, a person, a Brahimi-like figure, 
serving in Baghdad? Not with you in this sense of the American 
Embassy, but serving with you with a sense of a designated 
role, so that there's someone to go to, there is someone to 
look to, who represents whatever role the U.N. agrees to take 
on. Is that part of what you would envision?
    Ambassador Negroponte. Yes, and let me elaborate a bit on 
that. Yes, I do envision it. I think that once the transitional 
government takes office, I would hope that by that time, the 
Secretary General would have already named or identified a 
special representative of the Secretary General to represent 
him in Baghdad. I hesitate to venture a prediction as to whom.
    Senator Biden. Oh, I'm not asking that.
    Ambassador Negroponte. Whom that might be, but yes, I think 
there would be a classic SRSG U.N. operation as there has been 
in Afghanistan, and in these other hotspots around the world.
    The other point, if I could add, Senator Biden, I mention 
the resolution dealing with the issue of transition, possibly 
with the multinational force. I think it would also likely deal 
with the endorsement of Ambassador Brahimi's efforts, as you 
mentioned. I think it would also touch on the question, this 
question of United Nations role. And I think also, importantly, 
it would reaffirm appeals for help from other countries, for 
international assistance for Iraq.
    Senator Biden. Well, that to me--I mean, I am encouraged. 
First of all, I am encouraged by you not engaging in diplo-
speak with us, and answering not only exact questions, but you 
know what we're driving at, what we're trying to flesh out. And 
it has been relatively rare of late, and I truly appreciate it. 
And I know that nothing is certain. I know this is a fluid 
proposition.
    It is important for us, in my view, and the American 
people, to know what the goal is, what the objective is, to 
sort of outline it for them.
    And the last point that you made, and my time is almost up, 
relates to, as I understand it, essentially more than merely an 
invitation for other countries to participate. Providing a 
vehicle that they can, if we are able through bilateral 
diplomacy with our NATO friends, if we're able through 
bilateral diplomacy with our friends in India, and if through 
bilateral diplomacy with others, we're able to convince them 
that they should participate for their own safety's sake, as 
well as our need, that this resolution would be a vessel that 
they could drop their request in, that they would be able to go 
back to their people and say, no, no, our sending x number of 
troops to a multinational organizational force, is not us 
responding to the United States alone, it is within the context 
of a broader U.N. mandate as to how to proceed.
    Which as all of us have traveled around the world, 
everyone, the leaders who have told us separately, together, 
that they want to participate, have indicated they need--and I 
don't mean to make it sound trite--that cover, they need that 
structure in order to participate.
    I'll conclude by saying, Mr. Ambassador, I truly appreciate 
you not engaging in what has occurred in the recent past in 
these hearings, and that is that we're waiting for others to 
respond. You have been a skilled diplomat for 40 years. And 
your skills have been honed. You and I both know that in any 
circumstance that we've ever got NATO to participate, or any 
other group of people, it's that we have had a plan that we 
have gone and sold, as opposed to suggesting that, hey, NATO, 
we sure would like you in, what do you think guys, we're 
inviting you.
    That's never how, in my experience, other than the 
spontaneous invoking of Article 5, which was never done before, 
anything has ever happened in NATO, and/or with any of our 
allies.
    It's not likely that the Indian Prime Minister is going to 
pick up the phone and say, hey, Mr. President, I'd like to get 
engaged here, we're prepared to send, which has been discussed 
at one point, up to 30,000 forces. It comes as a consequence of 
an internal decision made by a President, led by a President, 
and given to incredibly skilled people like you.
    And it is encouraging and I don't want to read too much 
into what you said, but I believe you're moving in a direction 
that gives us the opportunity, for the first time in the last 
year the opportunity to actually put together a genuine, 
multilateral, multinational fighting force, because remember 
the numbers, America 135,000, Britain 6,500, Spain gone, 
Honduras gone, others gone, others talking about going, so this 
ain't much of a coalition.
    I know that you have to say that it is, but it ain't. And 
so this gives us the opportunity, I believe, if we back it up, 
unrelated to the United Nations, with bilateral, intense 
negotiations with a plan, to actually flesh out this force in a 
way that is not only an American face. That's my hope. I'm not 
suggesting that it is yours or not. But I hope that last 
sentence, which is--``this then creates the opportunity to 
invite people to come in.'' I think it will. I hope we followup 
on that.
    I thank you for your testimony, and if you want to comment, 
please do. You don't have to, I don't want to put you in more 
of a spot.
    Ambassador Negroponte. Just one point, because there is a--
one thing that we have done is to go out to a number of 
countries appealing to them to think about providing forces, or 
to offer forces, for the specific purpose of protecting United 
Nations activities in Iraq. We haven't yet got any affirmative 
or positive response.
    Senator Biden. We have also gone to NATO, because I 
personally was there. I happened to be bracketed the week that 
I was there speaking to the perm reps. The Secretary of Defense 
came, I spoke, and I don't put myself in this category, and 
then the Secretary of State came, and they asked for NATO to 
consider participating.
    This is very different than if you have a plan to go to 
NATO, as General Jones indicated we have the capacity to do. 
I'm not putting him on the spot. He said, the capacity, to say 
that this is a plan, we'd like the proffer this, we have 
written this plan. Our military guys have sat down and said 
this would work. This is what you can do, and this is what we 
would like you to do. And it is all done behind closed doors. 
But I hope that were going to be aggressive in that effort.
    And again, I thank the chairman for--I've gone over. I 
thank the chairman, and thank you, Mr. Ambassador. I genuinely 
look forward to working with you, I feel you have given me a 
ray of hope here.
    The Chairman. Mr. Ambassador, let me mention that a bit 
earlier in our hearing, we were joined for a little while by 
Senator Domenici, the distinguished chairman of our Energy 
Committee. He has given to me a note in which he simply 
indicates that he is very hopeful of visiting with you.
    I'm going to ask a staff member to convey this note to you. 
You may want to give it to a staff member who is helping you 
today. I have no idea of your schedule, and you have already 
mentioned a return to the Security Council. As a courtesy to my 
colleague, because he is deeply interested in visiting with 
you, I wanted to mention that.
    I now recognize Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    John, I again express my thanks to you and your family, for 
agreeing to take on this critically important assignment. As 
the chairman has noted, there is little question about the 
support you will get, certainly from every member of this 
committee, and I suspect very many members of the U.S. Senate.
    I want to add a point that Senator Biden made in your last 
exchange, regarding the United Nations.
    John, I am particularly impressed, pleased, hopeful with 
one of the things that you said here in your statement, and I 
quote, you say, as you go along into the middle of your 
statement, ``there is ample evidence across a broad range of 
situations, that a strong partnership with the international 
community, including the United Nations organizations, is in 
our strategic interests.'' Many of us have argued for that for 
some time, long before we invaded Iraq. It is my opinion, the 
only option that we have for success, not only in Iraq, but in 
the Middle East, is to work closely with our allies, the United 
Nations, forging alliances, that includes as you know so well, 
our Arab allies, our Middle East allies, our Muslim allies.
    And we have for too long shelved that dynamic and that 
reality. So I'm particularly pleased that you would come before 
this committee this morning and address that as specifically as 
you have addressed it.
    Now, a question. You, I'm sure, saw this and there has been 
some reference to this piece in the Washington Post yesterday, 
and I will quote exactly so I can frame my question precisely. 
The Post reported, ``in order to gain the support of Ayatollah 
Sistani, and ease the transition to an interim Iraqi 
Government, the U.S. is considering compressing or scrapping 
much of the interim constitution known as the Transitional 
Administrative Law, so that only pivotal provisions on human 
rights and dates are retained U.S. officials say.''
    My question, John, is that true?
    Ambassador Negroponte. Senator, first of all, it is an 
unidentified source, and it says that ``the U.S. is 
considering,'' so I don't take that to be some kind of gospel 
here. As far as I'm concerned, my marching orders are to work 
toward the achievement of a transitional interim government, 
and with all the different authorities, and documents that have 
already been agreed up until now.
    I think, frankly, the Transitional Administrative Law sets 
forth some very, very, important elements. First----
    Senator Hagel. Let me ask you this, John, you're not aware 
of any exchange going on on the inside, in fact, to make this 
an accurate report----
    Ambassador Negroponte. Well, it's certainly not to make it 
happen. It may be that somebody in the administration is 
thinking of it, but I'm not----
    Senator Hagel. Well, you and I both know that it has to be 
somebody, not a clerk.
    Ambassador Negroponte. Right, right.
    Senator Hagel. It has to be somebody at a fairly senior-
level position. But in your--what you can tell the committee is 
that you know of no senior administration official now engaging 
in this consideration that was represented in the Washington 
Post report.
    Ambassador Negroponte. I know of no such decision.
    Senator Hagel. Thank you.
    Back to the interim Iraqi Government, they have powers, 
what are their powers? As you know, Under Secretary Marc 
Grossman was here last week, and he was answering a number of 
questions about sovereignty, and acknowledged it would be 
limited sovereignty. And the particular question that I have 
comes--and I want to range into this a little bit, a little 
wider and deeper.
    But, specifically, would your understanding of a limited 
sovereign Iraqi Government have veto authority over proposed 
military action like going into Fallujah, for example, 
Fallujah?
    Ambassador Negroponte. Let me step back a second here, 
Senator.
    On this whole question of sovereignty, we've even passed a 
resolution, I believe Resolution 1500, that said that the 
Governing Council of Iraq was the embodiment of sovereignty of 
that country. And what has been restricted here during this 
occupation phase, has been the exercise of that sovereignty. As 
far as I'm concerned, when July 1 or June 30 rolls around, the 
exercise of sovereignty is going to be restored to the 
government and the people of Iraq.
    It happens to be an area where they are not yet in a 
position to fully exercise their powers, and that is in the 
security area. But I don't want to use any kind of terminology 
that would in any way belittle the responsibilities that are 
going to be taken over by the newly appointed sovereign 
government of Iraq.
    Senator Hagel. I understand what you have said. However, to 
answer my question--the question that I have asked you, the 
answer to that would be no, that in your terms the sovereign 
Iraqi Government, July 1, would not have veto authority over 
military involvement in Fallujah?
    Ambassador Negroponte. I think you're asking for a yes or 
no answer in a particularly difficult circumstance.
    Senator Hagel. But if they have sovereignty----
    Ambassador Negroponte. Sorry.
    Senator Hagel. If they have sovereignty, Mr. Ambassador, 
what does that mean? Do they have sovereignty or don't they 
have sovereignty?
    Ambassador Negroponte. On a specific issue like that, which 
could obviously be widened and be applied to any military 
exercise or national security issue, and that is why I use the 
term ``exercise of sovereignty.''
    I think in the case of military activity, their forces will 
come under the unified command of the multinational force. That 
is the plan, and I think that as far as American forces are 
concerned, Coalition forces, I think they're going to have the 
freedom to act in their self-defense, and they're going to be 
free to operate in Iraq as they best see fit.
    But when it comes to issues like Fallujah, as I discussed 
earlier, I think that that is going to be the kind of situation 
that is going to, in addition to everything else, be the 
subject of real dialog between our military commanders, the new 
Iraqi Government, and I think the United States Mission as 
well.
    The Chairman. Please, let's have order in the hearing room.
    [Pause.]
    The Chairman. Please, let the Ambassador testify. I would 
appreciate the helpfulness of our audience.
    I apologize for that interruption, Mr. Ambassador. You were 
responding to Senator Hagel's question. Had you completed your 
response?
    Ambassador Negroponte. I believe so.
    Senator Hagel. Well, I've just lost 2 minutes, of course.
    The Chairman. Your equity will be restored.
    Senator Hagel. Well, as the fair chairman that you are, I 
appreciate that.
    Well, let me move on, Mr. Ambassador, because it is my 
sense that the sovereignty is an issue that is still being 
played out, and if a country doesn't have the sovereignty to 
make national security decisions for itself, and military 
commitments, then I am not sure that I would define it as a 
sovereign government.
    But recognizing what you have stated about the unknowns and 
uncontrollables, I appreciate that. All that I'm trying to do 
is to get to some definition here as to, as to really, in fact, 
honestly, if that's sovereignty----
    Ambassador Negroponte. Well, it's certainly going to be a 
lot more sovereignty than what they have right now.
    Senator Hagel. Well, that's the----
    Ambassador Negroponte. And it is the degree in size, No. 1.
    No. 2, I think it is important to say, that we are doing 
and we're putting a lot of effort behind helping the government 
and people of Iraq develop their own security capability. There 
are some 200,000-plus Iraqi security forces. I don't know 
whether the position has been created or is about to be created 
of a national security adviser. The different offices required 
to enable the government and people of Iraq to take over their 
own defense are being established.
    And now with this modification that we've just seen in the 
implementation of the de-Baathification policy that was 
discussed by Ambassador Bremer the other day, that too can help 
accelerate that process.
    So I would say, Senator, that we're going to work toward 
the day, and hope that it comes as early as possible, that the 
Iraqis can take greater and greater responsibility for their 
own security. But they are not in a position to do that at this 
particular moment.
    Senator Hagel. Well, my point here in spending a little 
time with this issue, because I think it is important, not 
because it is, technically, is some definition that we need to 
come to within this committee, but it is an expectation issue 
for the Iraqi people, as you know. And the Iraqi people I 
suspect, are going to expect something on July 1. I don't know 
if they're going to expect or will expect a so-called sovereign 
nation making decisions for itself, as sovereign governments 
do.
    But my point in pursuing this a little further is because 
you know better than anyone, this is going to be an issue, and 
it is going to be an issue that ties back to the United 
Nations, and that's where I want to go with my last question.
    In your opinion, to get some of the members of the U.N. 
Security Council committed here, what do we need to do in your 
opinion, the Russians, the Chinese, the French, all have had 
private conversations with you, had private conversations with 
their senior members of their government, with Members of the 
Congress, obviously with the administration on where they can 
participate, how they can anticipate.
    What kind of U.N. statement that would be codified in a new 
resolution which you had acknowledged earlier this morning, 
would need to be written in order to get the enthusiastic, not 
only support, but involvement of those U.N. Security Council 
members?
    Ambassador Negroponte. Well, I did discuss or describe 
earlier the kinds of elements that I think will be covered in 
such a resolution. I can't think of any particular element that 
would be decisive with respect to their--I don't think it's a 
resolution in and of itself that is necessarily going to bring 
about participation by France, or Russia, or Germany, or 
others. They have some other concerns as well.
    But I think that once sovereignty has been restored, once 
that transitional government has been established, these 
governments have signaled that they will be more open and more 
amenable to looking for ways to be helpful to the interim 
government in Iraq.
    Senator Hagel. Well, that's what I was driving at. What do 
we have to do in order to get them into that position which you 
have just said, more amenable to help which specifically means 
what? Troops? Or, what would that mean?
    Ambassador Negroponte. Well, I think among others would be 
economic assistance. None of them have signaled yet that they 
have a readiness to deploy troops to Iraq, whether it is 
because of the occupation or because of the security situation. 
I wouldn't hold out great hope for it, an immediate initial 
contribution----
    Senator Hagel. Well, that's what I'm trying to get at.
    Ambassador Negroponte [continuing]. Of troops from the 
countries that you mentioned.
    Senator Hagel. What would they bring to the effort then if 
troops are off the table. Economic meaning aid, meaning what?
    Ambassador Negroponte. Well, I think economic assistance, I 
think support for a United Nations efforts. Perhaps they may be 
willing to provide some troops to support U.N. operations in 
Iraq. I think help with the neighbors of Iraq in ensuring and 
encouraging them not to engage in behavior that undermines what 
is happening inside of Iraq. There are a number of different 
ways that they can be helpful.
    Senator Hagel. My time is up. Mr. Ambassador, thank you.
    Ambassador Negroponte. Thank you.
    The Chairman. Thank you, Senator Hagel.
    Senator Dodd.
    Senator Dodd. Thank you very much, Mr. Chairman. And again, 
welcome.
    Ambassador Negroponte. Thank you.
    Senator Dodd. And to your family as well. It is good to see 
them with us.
    In the sense that this is a very nontraditional 
confirmation hearing, I was trying to recall, Mr. Chairman, any 
similar kind of a hearing. We haven't gone quite to the extent 
the Finance Committee did a number of years ago when our former 
colleague Lloyd Bentsen was nominated by President Clinton to 
the Secretary of the Treasury. And as I recall, Pat Moynihan 
actually moved the nomination in the committee, and then they 
pursued with the questions. They actually voted him out before 
they started the questions. But we are not going that far, 
John, here.
    But in a sense, what I am getting at here is quite obvious, 
this committee is going to confirm your nomination, and so in 
the traditional sense the normal question-and-answer period, it 
is not really appropriate here because nothing you're going to 
say here is going to dissuade us that you shouldn't be the 
choice to get this job done.
    So I say that as a background because I think that you've 
been very candid in your response to Senator Biden, and the 
chairman and Senator Lugar. And I'm going to pursue a couple of 
these things.
    Let me first of all just pick up on Senator Hagel's first 
question to you, because I have a similar line of questioning, 
and that is a Washington Post story about scrapping. I have the 
article here, but I think the word is scrapping--a good part of 
this law of administration in the State of Iraq for the 
transitional period. And you said that there has been no 
decision made. The article doesn't suggest one has. It suggests 
that senior people are discussing this at a very high level. 
And I think it is very important that we pursue this, at least 
briefly.
    Can you share with us to what extent that is being 
considered, to scrap this or at least significantly truncate 
it. There are 62 provisions or articles in this document, and I 
have read through it and I find some of them so interesting, 
banning guns and guaranteeing a right to education and health 
care, things that we don't find in our own Constitution. But 
I'm not going to pursue the line of questions about specific 
provisions, but are we walking away from this in order to get 
the kind of support we need of the U.N. Is that a serious 
discussion that is ongoing in the administration?
    Ambassador Negroponte. Well, Senator, if it is, I don't 
know about it.
    Senator Dodd. OK. All right.
    A second line of questioning that I want to pursue with 
you. Contrary to what many people may think, these 62 articles 
here is not--this will take effect when the elected government 
takes over. So that the 62 articles don't apply on July 1 
through January 2005. As I read this, going into the first 
Article 2, it says that ``the first phase shall be given the 
formation of a fully solvent Iraq interim government that takes 
over on June 30. This government shall be constituted in 
accordance with the process of extensive deliberations in 
consultations with cross-sections of the Iraqi people conducted 
by the Governing Council and the Coalition Provisional 
Authority, the CPA, and possibly in consultation with United 
Nations.
    ``This government shall exercise authority in accordance 
with this law''--accordance with it, ``including the 
provisional principles, and with an annex that shall be agreed 
upon and issued before the beginning of the transitional 
period, and shall be an integral part of this law.''
    I haven't been able to get an answer as to where this annex 
is. What's in it? Who is writing it? Is anyone being consulted 
in Iraq about it? The annex seems to me is going to be the 
pivotal document between July 1 and the January date. And I 
need to know what's in this annex, and who is writing it, and 
how it is different, because I think a lot of people are 
working under the assumption that the 62 articles in the 
Coalition Provisional Authority are really going to apply. And 
it seems to me reading Article 2 that it is this annex that is 
going to apply, and I would like to know how that works. Can 
you share or shed any light on that at all?
    Ambassador Negroponte. I'm afraid I can't. I am just not, 
at the moment, not clued in as to the discussions about the 
annex. It is conceivably because they haven't taken place yet. 
But I'll have to get you the answer on that one for the record. 
And obviously, it's an issue that I myself am going to have to 
get into.
    [The following responses was subsequently provided.]

    The Transitional Administrative Law (TAL) was drafted by a 
subcommittee of the Iraqi Governing Council (IGC). It is the product of 
an Iraqi-led process. In addition to enshrining fundamental freedoms 
and human rights, the TAL also defines the structure and selection 
process of the Transitional Government, which will be elected no later 
than January, 2005.
    The TAL annex will define the precise structure and authorities of 
the Interim Government, which will take power on June 30 and guide Iraq 
toward elections. Article 2 of the TAL says that the provisions of the 
TAL (including those pertaining to fundamental freedoms) will remain in 
effect throughout the transition period. We expect that the IGC will 
conclude the Annex after UN Special Advisor Brahimi completes his 
consultations in Iraq.

    Senator Dodd. Yes, and it will be recorded. And Mr. 
Chairman, I might suggest that under the appropriate 
circumstances since it--if the annex is going to be potentially 
a vehicle for compressing the transitional law, I think it 
might be important for the committee to find out what is in 
this annex. I think it is going to be a very important document 
it seems to me. And having access to that is going to be 
critically important as to how this transitional period works 
between July 1 and December. And I know you don't know clearly 
what was involved in it, and I understand that. But it is also 
important for the committee to be well briefed on what is in 
this. We might want to do a hearing on it at some point, if 
we----
    The Chairman. If I may make a quick response to the 
Senator.
    Senator Dodd. Yes.
    The Chairman. It might be appropriate for a future hearing. 
I indicated, with the cooperation of both sides, that we will 
have additional hearings to monitor what is going to happen 
during these critical months of May and June. That certainly is 
a very important element.
    Senator Dodd. I appreciate that, Mr. Chairman.
    Ambassador, would you also share with us what your role is 
apt to be here. Obviously, we're all talking about this new 
position, but a critical position is going to be who is going 
to be managing the U.N. operations here. We're all talking 
about the significance of this.
    What is your plan? Will you continue to be at the United 
Nations, and working that side of the agenda here? Can you 
share with us how the administration intends to proceed with 
the function, obviously, with getting an embassy up and 
running, doing that job, and the critical role the U.N. will 
play, who will take on that responsibility?
    Ambassador Negroponte. Senator, subject to further guidance 
from Secretary Powell, what I am doing at the moment is that I 
am working on identifying a team, I have already identified a 
Deputy Chief of Mission who will be going out to Baghdad in the 
middle of May.
    Senator Dodd. Yes.
    Ambassador Negroponte. We have already identified most of 
the key counselor positions at the Embassy. So we will have a 
forward cell, if you will, or base of that Embassy. As Marc 
Grossman mentioned the other day--identified--I think about 80 
percent of the positions that we intend to fill. They were 
waiting for my nomination before identifying the senior-most 
levels of the Embassy, but that now is in the process of 
happening.
    I am spending half--at least half--of my time here in 
Washington now, leading into this job. But I also am shuttling 
back and forth between here and New York. And I expect 
certainly to play a role in the question of the negotiation of 
a Security Council resolution.
    Senator Dodd. Right.
    Ambassador Negroponte. Last, as to when, in fact, I will 
actually go out to Baghdad, I would at the moment estimate 
that's going to be some time around the time of the transition. 
But the details as to when exactly I would arrive there have 
yet to be worked out. But it would be some time around the 1st 
of July.
    Senator Dodd. I read into that then, that you're not trying 
to specifically allocate a time, but you're in involvement with 
this mega-resolution, whatever you want to call it, at the U.N. 
is where you're going to be spending at least a bulk of your 
time here trying to get that right, rather than on the ground 
in Iraq.
    Ambassador Negroponte. As far as my involvement at the 
United Nations is concerned, yes, that will be my priority.
    Senator Dodd. OK.
    Let me ask you, if I may, as well, about the security. What 
is the plan, very briefly. And again, this is a little 
specific, but are we going to rely on private contractors for 
security at the Embassy, or are we going to go the more 
traditional method?
    Ambassador Negroponte. Well, there is a major effort 
underway to deal with the question of security for the Embassy. 
Ambassador Frank Taylor, our Assistant Secretary for Diplomatic 
Security, has been out to the area. We have some 30 diplomatic 
security agents already there, preparing and laying the 
groundwork. We expect to have at least 50 diplomatic security 
agents in Baghdad. Plus, we expect to continue some of the 
contracting arrangements that have existed with the CPA for 
protective details and so forth.
    And in addition, of course, we will have to work extremely 
closely with the Coalition forces, with American forces upon 
whom we will be relying for our fundamental protection.
    Senator Dodd. Very good.
    And last, if I may just quickly, I wonder if you would 
agree that under existing U.N. resolutions the United Nations 
is monitoring, a Verification Inspection Commission still 
exists, and in your view still has the authority to complete 
its mission to make a final report to the U.N. with respect to 
Iraq's WMD program. Is it going to be allowed to do so?
    Ambassador Negroponte. It certainly still exists. The Iraq 
Survey Group has supplanted it, if you will, in the current 
situation with respect to searching for and verifying the 
existence of WMD in Iraq.
    I think the issue of the final disposition of UNMOVIC is 
something that we ought to put off into the future and not seek 
to resolve now. And I would not subscribe to the notion that 
it--I think it was mentioned earlier that we might be 
recommending that it be abolished, and I do not believe that we 
should address any such action at this time.
    Senator Dodd. Very good. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Dodd.
    Senator Chafee.
    Senator Chafee. Thank you very much, Mr. Chairman. Welcome, 
Ambassador.
    I think there's a sense in the American public that anybody 
who wants this job is welcome to it. And on the other hand, as 
Senator Biden said, and we're looking for somebody who can get 
into a phone booth and come out with an ``S'' on their chest. 
But I know you have talked about it is a steep learning curve, 
and you're moving into this capacity. I guess you said, 8 days 
ago you were nominated.
    This is probably a technical question, but I will give a 
shot anyway. We're seeing inside Najaf that a shadowy group, 
according to the papers, attacking Al-Sadr's militiamen under 
the heading of the Al-Afaker army. Are you up to speed at all 
on what that dynamic is, and with the ramifications of warfare 
inside Najaf.
    Ambassador Negroponte. No, I am not. I did see the report, 
Senator, but the only thing that I would add, I think it is 
important to make the point, and I didn't make it in my 
prepared statement but Ambassador Bremer has been hammering 
away at this, is that these uncontrolled armed militias have no 
place in the future of Iraq, and strong steps have to be taken 
to bring those kinds of situations under control.
    [The following additional response was subsequently 
provided.]

    The Coalition is committed to bringing Muqtada al-Sadr to justice. 
At the same time, we are highly sensitive to the sanctity of the holy 
cities. We welcome the recent public statements from Iraqi clergy and 
political officials calling on al-Sadr to leave Najaf. The Iraq people 
are also mobilizing against al-Sadr--a coalition of Shi'ite moderates, 
led a peaceful protest march against al-Sadr's presence in Najaf on May 
11.
    We have seen reports of localized armed groups that may at times 
clash with al-Sadr's forces. These reports demonstrate the critical 
need to return law and order to the holy cities. We are working to 
build the capacity of Iraq's political institutions and security 
services to counter armed groups who seek to use violence to influence 
political outcomes.

    Senator Chafee. And even if it means another, as it says in 
the paper, a shadowy militia rising up, is that to our 
advantage?
    Ambassador Negroponte. Well,----
    Senator Chafee. Ambassador Bremer is advocating--it sounded 
like, and as you said for Iraqis to rise up, but is that a 
positive development?
    Ambassador Negroponte. I honestly don't know anything more 
than what's in that story. But certainly we will look into it.
    Senator Chafee. Very good.
    As we look at this Superman position you've been nominated 
for, what in your long career will be helpful as we look ahead? 
You certainly have had a distinguished career in Vietnam, at 
the Paris Peace Talks, Ecuador, Honduras, hot spots around the 
world, the Philippines, as you said earlier. Anything in 
particular, just in general, as you look back on your career to 
help prepare you for this difficult task?
    Ambassador Negroponte. I think that my most recent 
assignment in many respects could be extremely helpful, 
Senator. The fact that I have been our representative to the 
United Nations, and I have dealt with representatives from 
countries that are interested in Iraq at the Permanent 
Representative level, many of them who are high-level diplomats 
from their own countries. And I have also had a chance to 
interact with Ambassadors from the region surrounding Iraq, and 
of course I have worked on the Iraq issue in the United Nations 
for the past 2 years. So I think that probably has been the 
most immediate preparation.
    I have referred to my past experience in dealing with our 
military, and of course I have had the opportunity to run a 
couple of pretty large missions.
    Senator Chafee. Yes, that might beg the question, will our 
allies look on this considering the many mistakes that have 
been made, that the past position might be a liability in 
building bridges?
    Ambassador Negroponte. Well, I'm a great believer in 
diplomacy. And I haven't done this for more than 40 years 
because I didn't enjoy it. I enjoy reaching out to people of 
other countries and nationalities, the representatives, their 
peoples. That's been sort of the bread and butter, if you will, 
of the kind of work that I have enjoyed doing throughout my 
life.
    I also don't see myself as being some kind of super--
running some kind of super embassy, Senator. I see it more as--
obviously not as a traditional embassy. It is just going to be 
an embassy operating under very challenging circumstances. And 
I guess that's what I would say about it.
    Senator Chafee. My last question is, it was a long time 
ago, but the Paris Peace Talks, what did you learn from that? 
And is there any opportunity here, as we see things 
deteriorating for more, as Senator Biden said, jaw, jaw, jaw.
    Ambassador Negroponte. Well, I certainly don't see 
analogies between the Iraq situation and Vietnam because I 
think we're talking about a cold war versus a post-cold war 
situation. I think we're talking about some much more 
contemporary kinds of threats and difficulties.
    I suppose the main thing that the Paris Peace Talks 
experience gave me was just the exposure to negotiations about 
issues that are of intense interest to the people of the United 
States.
    Senator Chafee. Thank you. Good luck.
    Ambassador Negroponte. Thank you.
    The Chairman. Thank you very much, Senator Chafee.
    I want to express appreciation to Senator Sarbanes for 
yielding temporarily to Senator Boxer who has been present for 
a while. Then I will recognize Senator Sarbanes. Then Senator 
Corzine.
    Senator Boxer.
    Senator Boxer. Thank you, Mr. Chairman. Thank you, Senator 
Sarbanes.
    Senator Boxer. Ambassador, you and I have had our past 
differences, and we were very open about that. Speaking about 
human rights abuses in Honduras, we approached it differently. 
I brought that up at your U.N. confirmation hearing, and what I 
greatly respect about you is that you got past it, and we have 
worked together on child soldiers and other matters. And I 
wanted to just say that I appreciate that. I am supporting you, 
strongly for this. I will do anything that I can to protect 
you, and to make sure that your family can rest easy, because 
we need to do that.
    But whether you succeed or not depends on, obviously, the 
policies that we put forward and the people at the other end of 
those policies. How do they see those policies? You know, will 
we continue to do it alone? Will we be able to get this 
resolution through, will our friends in NATO help us?
    The expectations of a people are so important. You know my 
mother always said to me when I was a little girl, that if you 
work hard this is what will happen at the end of the day. There 
will be rewards there. And I think that when statues fell, 
expectations were high, there was going to be an end to the 
dictatorship, there was going to be the beginning of freedom, 
and instead those expectations weren't met. There are a lot of 
reasons for that. And I don't want to reiterate it except to 
say that a lot of us on this committee on both sides said, 
where is the plan, where's the plan?
    But that's not to be discussed today, because we are where 
we are. Expectations weren't met. There was an occupation, 
increased violence, the terrorists moved in. I have a 
Department of State brochure that list the countries where al-
Qaeda operated. This was done right after 9/11, it was printed 
in October. Iraq is not on the list.
    They operated in our country, more cells here than in Iraq. 
Iraq wasn't on the list. Now we know there was a void and we've 
got the former Baathists, and we have the terrorists moving in, 
and more troubling than that, because I think in a sense that 
had to be expected because we didn't have a plan. But more 
troubling than that is that seven out of ten people in Fallujah 
say that it's OK to kill Americans, Mr. Chairman. Can you 
imagine?
    People that we want to free, we want to give them freedom, 
and economic justice, and so on and so forth. They say, oh, 
it's not right to burn the bodies and hang them from the 
bridge. That they didn't like. But it's OK to kill Americans. 
So, to say that you have a challenge is just understated. But 
you're not alone because we all want this to work now. As some 
say, this is the last opportunity. So today you have a clear 
chance to define what Iraqis can expect on July 1. And you said 
some of it today.
    But I think what Senator Hagel was trying to get from you 
is the reality of what the Iraqis can expect, when he kept 
saying when you say it is full sovereignty isn't it limited 
sovereignty? Isn't it? And I'm not sure that it got the right 
answer. So I have two questions.
    The first is, and I will pick-up on Senator Hagel's point, 
what will this new entity have to say in it, if the American 
military says, look we have to do some very unpleasant things 
in order to gain security, and gain control. So just a step 
back, and in the loftiest terms you want, and I think that's 
fine, tell us today what you expect the reality to be on the 
ground.
    My second question is really a tougher question, and the 
first one is tough. But the second one is this, I am very 
disturbed to read an article by William Safire yesterday, I 
don't think it has been brought up. And I don't even know if 
it's totally accurate. But William Safire said that Lakhdar 
Brahimi said on French radio the great poison in the region is 
the Israeli policy of domination and the suffering imposed on 
the Palestinians, as well as the equally unjust support of the 
United States for this policy. And then he went on to call the 
Israelis brutal repressive Israelis, that they are not 
interested in peace, no matter what you seem to believe in 
America. This is extremely disturbing to me.
    And so you've got a man out there who the administration 
has put its faith in, and we have all called for greater U.N. 
participation, and these are his comments. So could you please 
comment first, this is your opportunity, as if you were on the 
radio to the Iraqi people right now, what do you hope their 
circumstance will be after they get this power returned to them 
on July 1?
    And, by the way, I've been one of the people who has said 
you can't back off the date because you promised it, you got to 
keep it, and so I feel that you need to go forward. What can 
they expect? And two, do you know about this Brahimi comment, 
and have you discussed it with him?
    Thank you.
    Ambassador Negroponte. Thank you, Senator Boxer.
    First on the question of what can they expect, and 
following up on Senator Hagel's question. The discussion always 
zeroes in on perhaps the most difficult and challenging 
question, i.e., what happens if there should be a difference of 
view on how to deal with a particular security situation?
    But for a moment, let's just step back and recognize that 
on the 1st of July this transitional government will be in 
charge of however many ministries that they are--25 ministries. 
They will be managing their own revenues; they will be able to 
conduct international relations; they will have Ambassadors 
around the world. They will be exercising all of the normal 
attributes of sovereignty, and in fact there are models around 
the world of countries that might not fully exercise 
sovereignty, but exercise the great preponderance of attributes 
of sovereignty.
    And that's going to be the situation with respect to Iraq. 
But it's going to be a work in progress, and it is going to be 
evolutionary.
    On the security issue I think that we have already--you're 
going to followup.
    Senator Boxer. Yes, just to say, your message is not to the 
people in the ministries, it's to the other people. What do you 
have to say to them about these ministries?
    Ambassador Negroponte. What I'm going to say is, that up 
until now, you have technically been under--in an occupation 
status. But, from July 1 forward, you, the people and 
government of Iraq, are going to be taking responsibility for 
your own affairs. But that this is the way forward. This is the 
way to resolve----
    Senator Boxer. And who picks the people who will be now in 
charge?
    Ambassador Negroponte. Well, this is the process that 
Ambassador Brahimi, in consultation with others, is involved 
in, and we are hoping that sometime between now and the 1st of 
July, those individuals will be identified. I gave an estimate 
of about the 1st of June. I don't know when exactly this new 
government is going to be identified.
    But that--the planning----
    Senator Boxer. Well, just to finish off----
    Ambassador Negroponte. Sorry.
    Senator Boxer [continuing]. That part of the conversation.
    That's a good message, but the very important part of it, 
which you really haven't addressed because you can't, you don't 
even know how this is going to come down, and it's the end of 
April. You have to convince, and we have to convince, the 
people in Iraq, that these new ministers have some substance to 
them, and that they are not handpicked by anybody else.
    And that's something that I hope you'll work for in the 
interim, for them to have any credibility, and for the people 
to embrace what they do. It will take a belief by the people 
that they are just not handpicked by America, or someone else. 
Because that is the key to this whole deal. And now--and so in 
this interim time, if we can help in any way, we can help you 
in any way push that forward, please let us know. But please 
continue on Mr. Brahimi.
    Ambassador Negroponte. Second, I would just like to say 
that no one has been a stronger supporter of Israel in the 
United Nations than the United States delegation to the United 
Nations. And I have been deeply involved in all aspects of that 
question during my tenure in New York. Mr. Brahimi's 
statements: I noticed that the Secretary General and a 
spokesperson distanced themselves from those remarks.
    The work of the United Nations on Israel is carried out by 
the Secretary General and another individual, the Special 
Representative for the Middle East Peace Process, and is 
working with us and the Quartet. It is not Ambassador Brahimi's 
responsibility, and I would have thought that if he had to do 
over again he might not have made those kinds of comments on 
the record.
    Senator Boxer. I would hope that he wouldn't do that. Thank 
you very much. And thank you again, Senator Sarbanes.
    The Chairman. Thank you, Senator Boxer.
    Senator Sarbanes.
    Senator Sarbanes. Thank you very much, Mr. Chairman.
    Mr. Ambassador, welcome, and we wish you well. You are 
taking on a very difficult assignment. I have just a couple of 
questions I want to put to you.
    I am very concerned about the status of forces situation 
after June 30. If we're turning sovereignty over to a new 
regime of some sort that's now being put together, how do we 
ensure the situation of our men and women, and indeed the 
others who are there with us, in terms of their status in Iraq 
as they go about carrying out their responsibilities?
    Ambassador Negroponte. My understanding, Senator, is that 
we consider Resolution 1511, which deals with the multinational 
force, to still apply. We also----
    Senator Sarbanes. Even after June 30?
    Ambassador Negroponte. Correct. Because it talks about the 
establishment of a multinational force until the completion--
until an elected government is established under the 
constitution. Not all Security Council members agree with us 
that that language is sufficient. And so that I think the 
question of a multinational force is going to have to be dealt 
with in the resolution that we negotiate now before the 
establishment of the transitional government.
    There's also a Coalition Provisional Authority Order 17, I 
believe it is called, that deals with the issue of status of 
forces, and we expect that to continue to be valid. And there's 
also a reference, I can't find it instantaneously, but in this 
Transitional Administrative Law. So I think we feel we've got 
the issue fairly well covered from various angles.
    Senator Sarbanes. Well, I want to express some concern, 
which seems to me that reliance on the previous resolution, if 
it's been questioned or challenged in a number of sources, with 
respect to the coverage it provides, is a risky thing to do and 
exposes our people, potentially, to some high degree of risk.
    And it may well put you in a very difficult situation. So 
it seems to me thought has to be given to how to cover that 
status of forces situation as you move ahead. And presumably a 
number of people agree, including some of our own people, since 
they are now considering a further U.N. resolution that would 
be addressed to that issue.
    Presumably if the previous resolutions were deemed to be 
crystal clear on the subject, we wouldn't have to be engaged in 
that effort. And I think this is a very important issue that 
needs to be covered, over the next 60 days, that we have 
leading up to the transfer of authority.
    Second, apparently an issue to be determined in this 
resolution that you're considering, is whether the United 
Nations, or the United States, or the U.S. team, will write the 
final report on Iraq's weaponry. It is not quite clear to me 
why each of them can't write their own report. I don't quite 
understand what the issue is there. And it would seem to me 
that diplomacy would dictate that they each go ahead and write 
their own report. What is the issue there?
    Ambassador Negroponte. Well, the issue, Senator, is the 
ultimate disposition of UNMOVIC, the United Nations' monitoring 
and verification mechanism. I think that the best way of 
dealing with this--and the current intention will be--just to 
defer that issue until a later date. Once the Iraq Survey Group 
has completed its work, our belief is, this is not an issue 
that has to be decided now.
    Senator Sarbanes. Well, I have a number of other questions. 
But Mr. Chairman, I know my colleagues have been here some time 
and I will forbear on that.
    And Mr. Ambassador, we wish you well, and you're taking on, 
as everyone recognizes, a very difficult assignment. Not the 
least of which is to work hard and not being perceived as the 
proconsul. Presumably, you've given a lot of thought to that. 
How does one avoid being perceived as the proconsul?
    Ambassador Negroponte. Well, there's no denying that the 
United States is going to continue to play an important role in 
Iraq for the foreseeable future. Not the least of which aspects 
of that is that we're going to continue to have a substantial 
military presence, plus we will be providing massive economic 
assistance.
    I think, however, Senator, that where possible we should 
make every effort to play a supportive and an encouraging role 
rather than an out-front role. And that kind of approach is 
certainly very consistent with the kind of diplomacy that I am 
comfortable carrying out.
    Senator Sarbanes. Good. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Sarbanes.
    Senator Corzine.
    Senator Corzine. Thank you, Mr. Chairman. And Senator 
Sarbanes for his courtesy as well.
    Ambassador, I do want to convey my gratitude and express 
respect for both your courage and commitment to serving our 
Nation in such a difficult task. And I hope to be supportive in 
every way, not just the nomination process, but as you carry 
out your tasks. And they are quite formidable.
    I continue to be very troubled, and I'm not actually 
particularly calmed by your testimony today about what this 
sovereignty means. I reflect back on a speech that Ambassador 
Bremer gave last week where he stated that the new Iraqi 
Government will be fully sovereign. We had this discussion 
about what the Transitional Administrative Law says and it uses 
fully sovereign. Then we had specific discussions to go just a 
little bit off the top of what that means, and it quite clearly 
doesn't get to the same translation that I, you know, I think 
normal human beings like Iraqis and the American people might 
actually look at what full sovereignty would mean.
    And I think one of your most major tasks is trying to get 
the expression of how this is reflected to the general public, 
not just the United States public, or the international 
community, or the Iraqi people. We ought to be talking about 
the same thing, using similar language that is not so loose, 
and I am troubled that we don't seem to get that.
    You know, there are many specifics that go well beyond, 
let's just assume that, you know, we're relatively clear on the 
security situation side. I have concerns about the status of 
forces arrangements, but let's say those are excepted, that we 
understand how sovereignty is somewhat limited, with respect to 
those, because of the U.N. resolutions and the arguments that 
you made.
    But there is this question that we heard last week that 
Under Secretary Grossman testified that the interim government 
will have no lawmaking authority. Who is responsible for 
budgets? Who is going to deal with criminal procedure? Who's 
going to set up the law governing the civil service, or at 
least having those issues? And you know, one of the big issues 
that I wonder about, within the context of lawmaking, is how do 
we deal with these 15,000 contractors that are out there. Are 
they responsible to our military disposition of war, or are 
they subject to domestic supervision in country? It is a 
significant issue that I think we worry about.
    They can't write a law, but there is an election coming. 
Who has the responsibility of setting down how those laws will 
be worked, regulations or structure of the election work being 
put together? I heard you give a very well articulated view 
that we will set up a foreign ministry and start establishing 
relationships with other countries. But who signs contracts? 
Who has the power of committing the economic will of the Iraqi 
people with regard to the disposition of the many, many 
contracts that so far CPA has been involved with?
    And then finally, I just--another specific example, I know 
there is a whole series of them here. Last week we heard about 
the naming of at least the leader of this tribunal that is 
going to deal with the prosecution of Saddam Hussein. The 
announcement of Salaam Chalabi, as the administrator of the 
tribunal. How are we going to name judges as authorized by the 
CPA. Does it follow along with the Transitional Administrative 
Law? Where are we moving? And there is a whole series of 
questions there, that get at fundamental sovereignty. And I 
think this is pretty confusing. When you hear fully sovereign, 
and limited sovereignty.
    So I've given you plenty of room to roam, Mr. Ambassador.
    Ambassador Negroponte. Well, I'll try not to roam too much.
    Let me, first of all--I didn't mean to give the impression 
that they don't have a foreign ministry yet, they do. And they 
have a Foreign Minister, and they have already been quite 
active. I think quite effective in representing their 
interests, and representing the interests of Iraq around the 
world, including at the United Nations.
    On the question of the lawmaking authority, I think we have 
to remember that this is going to be a transitional government, 
by definition limited in its timeframe. And the phrase 
``caretaker government'' has been used quite often. And so the 
application of that term is that it is created for a limited 
period of time, and with a particular focus.
    In this instance, the focus is going to be organizing the 
election for the transitional national assembly, not later than 
the 30th of June.
    You asked about the election preparations. Ms. Katrina 
Parelli of the United Nations has been out there and is going 
back out there again. And the plan there is to help form--and I 
think that's probably going to be done within the next month or 
so--an independent Iraqi electoral commission that will oversee 
the electoral process.
    So I think those preparations, I wouldn't say that they are 
very much in hand, but there's definitely a plan and steps are 
being taken to carry it out.
    Who signs contracts? Who engages--who commits--the 
government economically? I think the answer is the government, 
the cabinet ministries. They're going to be doing that. In some 
instances, I think they have already been doing this in the 
Ministry of Trade and elsewhere, where they have been 
implementing oil for food contracts and so forth.
    Senator Corzine. The last point on that, in that regard, is 
you're suggesting that this interim government, therefore could 
make commitments with respect to oil reserves being negotiated 
in contracts with foreign nations such as--that have previously 
been negotiated by the Iraqi Government.
    Ambassador Negroponte. Well, I believe----
    Senator Corzine. You're suggesting----
    Ambassador Negroponte. Well, I believe that the thinking 
there is that major decisions in that area ought to await the 
establishment of an elected Government of Iraq. But as far as 
carrying out the day-to-day business of the country, I think 
they will be able to do that. And while they may not be able to 
write laws, I think that they're going to have to find some way 
to memorialize various policy decisions that they make. But 
let's remember we're talking, if things go according to plan, 
we're talking about a 5 or 6 month period here.
    Senator Corzine. Tribunal? You want to speak on it?
    Ambassador Negroponte. On the tribunal, the one thing that 
I would mention, I just started getting briefed on that. But 
the Justice Department has got what they call their regime 
crimes adviser. There is a team led by the Justice Department 
that will be operating under my authority at the Embassy that 
will be advising and assisting the Iraqi tribunal with respect 
to the various war crimes.
    But I think planning for that is going forward, perhaps not 
as quickly as some might have liked, but now that we have a 
Justice Department team going out there, I think that's going 
to be helpful.
    Senator Corzine. And the authority, or the validity of the 
Chalabi administration on this tribunal?
    Ambassador Negroponte. I had just assumed that was his job. 
I wasn't aware that there was a question as to whether he 
should or should not be in that position.
    Senator Corzine. I think that the nature of these 
questions, and how these actually are dealt with in fact, will 
lead to judgments about people whether this is sovereignty or 
this is just another iteration of American occupation. And I 
think it is, personally I think a lot of these questions are 
open enough that it is worrisome that we set up false 
expectations. My main concern is that I hope that we don't rush 
to judgment.
    And in conclusion is this June 30 day. While important for 
some reasons, I think if this ends up not meshing with 
expectations in the broader public, we can end up failing even 
though we are doing a Herculean job of trying to accomplish the 
kinds of processes that he's talking about.
    The Chairman. Thank you very much, Senator Corzine.
    Senator Feingold.
    Senator Feingold. Thank you, and Mr. Chairman. Thank you, 
Mr. Ambassador, first, for your patience. I want to wish you 
well. And I want to thank you on behalf of myself and all my 
constituents for taking on such a tough assignment. I hope that 
your tenure in Iraq will be safe and successful.
    Let me say a bit about your long history in the Foreign 
Service. You've had a great deal of experience in working as an 
Ambassador, and interacting with congressional committees, and 
Members of Congress. But the post to which you have been 
nominated this time is, obviously, really quite extraordinary, 
in terms of the profile of the United States and the stakes at 
hand.
    If confirmed, you will also be stepping into this role at 
the time when many in Congress feel a level of frustration that 
we have been experiencing for some time, when it comes to 
getting solid information and clarity on U.S. policy in Iraq, 
and the reality of the situation on the ground.
    As Senator Dodd indicated in his opening remarks, this 
issue of candor, the need for candor and importance of candor 
for policy success, gets to the core of some of the concerns 
that I and others raised the last time you were before the 
committee for confirmation.
    If confirmed, what do you understand your responsibilities 
to be toward the Congress? Can you assure us that you will make 
open lines of communication, transparency, and disclosure of 
the whole truth to the elected representatives of the American 
people a priority, even when full disclosure means reporting 
bad or inconvenient news? And as it is related to this, what 
steps will you take toward this end?
    Ambassador Negroponte. Well, first of all, the answer is 
yes. I believe in the fullest possible communication with the 
Congress, Senator, and you can count on that.
    And also, as I have in my previous assignments in embassies 
abroad, I have always been a strong believer in welcoming 
congressional delegations, making and putting all facilities at 
their disposal, and ensuring that Congress is as well-informed 
as possible on the local conditions in the country to which I'm 
assigned. I have always thought that was one of the highest 
priorities and tasks. So I just don't think you're going to 
have any difficulty with me in that regard.
    Senator Feingold. If confirmed, what steps will you take to 
monitor and report on human rights related developments in 
Iraq?
    Ambassador Negroponte. Well, that is going to be one of the 
elements of the political situation in Iraq that will have to 
be reported on constantly. And so you can count on reporting on 
the human rights situation there including the rights of women, 
and a number of the kinds of rights in Iraq, that I think the 
United States is going to be particularly interested in.
    Senator Feingold. I'm just signaling here that I will be 
particularly interested in that sort of information as you 
convey it.
    To what extent will it be your responsibility to protect 
the employees of private security companies that have been 
hired to protect U.S. and allied contracts in Iraq?
    Ambassador Negroponte. I do not believe the responsibility 
is absolute, Senator, in the sense that we have--I think a 
number of these--you mentioned--you asked about security 
companies, did you not, Senator?
    Senator Feingold. Private security companies.
    Ambassador Negroponte. Yes, I think that up to now, at 
least, we have expected them to make their own arrangements, 
and their responsibility for their own security. But, 
obviously, they operate within the umbrella, as we all have 
been doing, of a coalition--the Coalition military presence.
    Senator Feingold. Let me ask another angle on this. During 
last week's hearing, one of the witnesses before the committee, 
Dr. Hashim, indicated that Iraqis have complained more about 
contemptuous attitudes of private security personnel than about 
any other armed force in the country. To what extent do we 
supervise the actions of private security personnel employed by 
the United States contractors? And to what extent will you as 
the senior representative of the U.S. Government assume 
responsibility for their actions?
    Ambassador Negroponte. Well, to the extent that I have 
responsibility, I will exercise it. But, to be honest with you, 
I don't know the full extent of my responsibilities, but I will 
find them out.
    Ambassador Feingold. Obviously, it would be of great 
importance to us, and our success, that these attitudes not be 
conveyed by Americans that are in that country.
    Ambassador Negroponte. Yes.
    Senator Feingold. OK.
    And in other post-conflict situations, we have seen 
corruption flourish and entrench itself during the period in 
which stability is very much a work in progress, and 
transparency and accountability are lacking. Do you believe 
this problem of corruption to be taking root in Iraq today, and 
what can we do to combat this trend?
    Ambassador Negroponte. I've heard some comments about 
corruption in Iraq, but I don't know all of the facts. I hasten 
to add, finding out facts about corruption isn't always the 
easiest thing in the world.
    But I think among the ways to deal with this issue is to 
encourage the development of democracy. I think free elections 
are an important constraint on corrupt practices. I think 
encouraging a free press and the other kinds of institutions 
that hold people accountable.
    Ambassador Bremer has reported that he's now encouraging--I 
think he may have indeed named the creation of a position of 
inspector general in each of the various ministries. And I 
think that is an important development. And I think that we 
should give those institutions encouragement as well.
    So I think there are ways of helping the people and 
Government of Iraq find ways to hold their government 
accountable in keeping with democratic practices, and I think 
we should pursue that.
    Senator Feingold. I would agree that one of the most 
important things, for the credibility of the future government, 
is the ability to have a minimum of corruption.
    Based on your experience at the United Nations, what is 
your assessment of how the United States presence and mission 
in Iraq is understood in the Arab world, and the broader Muslim 
world? Have we seen, in your view, a meaningful change in 
perceptions of the motives of the United States in the year 
since the war began?
    And what kinds of consequences will negative perceptions 
have for U.S. interests around the world? What can we do to 
address any problems that may have cropped up in this regard?
    Ambassador Negroponte. Well, I wish I could give you an 
encouraging report on that. I'm not sure I can, Senator. I do 
think it's fair to say that in the Security Council, which has 
only one Arab state member, Algeria is currently representing 
the Arab world in the Security Council. I do think that 
attitudes have become more understanding and supportive of what 
we're trying to accomplish going forward. But I think we still 
have our work cut out for us in the Arab world in general.
    Senator Feingold. When would you date this sort of shift to 
a more sympathetic feeling?
    Ambassador Negroponte. Sympathetic may be strong, but I 
would go all the way back to May of 2003, when we succeeded in 
passing Resolution 1483, unanimously. So from that time forward 
we were able to muster--generate--consensus in the Security 
Council. But that doesn't mean that there may not have been 
underlying doubts and ongoing difficulties with the policies. 
But I think as far as wanting us to succeed in going forward, I 
think that attitude has been around for a while. Particularly, 
in the Security Council.
    Senator Feingold. I am interested to hear that, but it 
doesn't follow the broader trend in many Muslim countries' 
feelings toward us. But obviously you're there, and you would 
know the perceptions in the Security Council.
    Ambassador Negroponte. Well, I made the distinction between 
the Security Council on the one hand and the Arab world on the 
other hand.
    Senator Feingold. Yes, fair enough.
    I thank you and I wish you well. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Feingold.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    Mr. Ambassador, what was General Garner's position with 
regard to keeping the Iraqi army intact?
    Ambassador Negroponte. I don't know the answer to that 
question, Senator, I regret to say.
    Senator Nelson. Well, I'm surprised that wasn't 
considerably discussed at the United Nations, in the back 
halls. It was my understanding that General Garner, when he had 
the responsibility, wanted to keep the Iraqi army intact, and 
he was overruled by a decision, I am told, by Ambassador Bremer 
who decided. Let me ask you that. Is it your understanding that 
Ambassador Bremer is the one who decided to disband the Iraqi 
army?
    Ambassador Negroponte. Well, it's certainly--that decision 
is attributed to Ambassador Bremer, so I assume that's the 
case. Yes, I'm sure he did not--I'm sure he did it with the 
consent of authorities in Washington.
    Senator Nelson. And as you look forward now in your 
position, how do you go about helping knit back together that 
Iraqi army, and cutting off at a certain level the Baathist 
leadership that you would feel, that would be inimical to the 
interests of the United States?
    Ambassador Negroponte. Well, first, as of June 1, or July 
1, excuse me, that responsibility really is going to shift more 
and more, where it's going to shift to some extent to the new 
Government of Iraq. But I think that apparently the decision 
has been made to modify the implementation of that policy with 
respect to Baathists, and that seems to be being welcomed, not 
only with respect to the security forces, but also with respect 
to other professionals in Iraqi society such as teachers, 
professors, and so forth.
    And the other thing, as I was saying in my statement, and I 
think perhaps at a couple of other points, I can think of 
nothing more important than the training efforts that are going 
to be undertaken to improve the quality and capabilities of the 
Iraqi security services. Not only in their army, but also their 
police, their Iraqi Civil Defense Corps, their border police, 
and so forth.
    And as I mentioned, that force adds up to some number 
around 200,000 and may even go slightly higher than that. But 
it is the quality and the training of these forces that I think 
is extremely important and deserves a lot of attention. And I 
am delighted that General Petraeus has gone back out to Iraq to 
undertake the responsibility for training Iraqi security 
services. And I think that's a very hopeful development.
    Senator Nelson. I visited one of those police training 
facilities, east of Amman, Jordan in January. The question 
then, was whether or not you could produce enough trained 
police over the course of time, not only from that one training 
facility but from several others, in order to have a police 
force that can keep the peace.
    And then, of course, the Marines moving on the city, to the 
west of Fallujah, what is it called, Ramadi? That's the city. I 
was so disappointed to hear that the Iraqi Civilian Defense 
Force, the ones to be fighting in conjunction with our Marines, 
suddenly melted away and disappeared.
    What do you see as your role as our Ambassador there in 
order to get the ICDF, as well as the police force, to be a 
professional, effective kind of operation.
    Ambassador Negroponte. Well, as I mentioned, this is going 
to be the responsibility of our military. And General Petraeus, 
very experienced already in Iraq, has been given the assignment 
of overseeing and managing the training of Iraq's security 
forces. So my responsibility will not be a direct one.
    But I can assure you that it will have my strong, personal 
support and encouragement because I think that the ultimate 
answer to dealing with security issues in Iraq is for the 
Iraqis themselves to develop the capability to deal with those 
questions.
    Senator Nelson. I hope so. That's another reason that I was 
so disappointed in what we saw happen 2 weeks ago.
    How long is it going to be for us, from a construction 
standpoint, to develop a new embassy, constructed and moved in, 
in Baghdad?
    Ambassador Negroponte. Well, first, Senator, my 
understanding is that we don't have funds for that project at 
the moment.
    Senator Nelson. But you have plans.
    Ambassador Negroponte. There are plans, but we have nothing 
in the budget for that. My understanding is something on the 
order of 4 or 5 years.
    Senator Nelson. So that leaves you, in the interim, to 
remain in the palace?
    Ambassador Negroponte. Well, actually, my understanding is 
that the Embassy is going to be in three different sets of 
buildings. And the palace will continue to be used for some of 
the--I don't want to call them back office--but some of the 
support activities of the Embassy. But my own office is going 
to be moved to a different location within the Green Zone.
    Senator Nelson. Within the Green Zone?
    Ambassador Negroponte. Yes, sir.
    Senator Nelson. Let's talk about the Syrian border.
    There have been a number of press reports recently, most 
recently last week in the Washington Times, about the Jihadists 
going across the border into Iraq with the complicity of the 
Syrian Government. As our future Ambassador, what is your view 
about working with the Syrians to try to change this, if true.
    Ambassador Negroponte. Well, of course, that's been a 
problem with Syria, in terms of its support for Palestinian 
rejectionist groups, the Hamas, and the Islamic Jihad, and the 
fact that they have provided safe haven for those groups in 
Syria, while they were conducting terrorist activities in 
Israel and in the occupied territories. So it's a problem, in 
some respects, that is not new to us.
    But I think my message to the Syrians would be that it 
would behoove them, and I think that it is in their interest, 
as well as the interest of the region, to do everything that 
they can to curb these kinds of activities and prevent them 
from happening.
    I don't think it is going to be my job in Baghdad to deal 
with the Syrians on this issue, but I would hope that our 
diplomacy in support of our efforts in Iraq is going to be 
sending that kind of a message to the Government of Syria. I 
know they are already doing it. I think we're just going to 
have to keep hammering away at it.
    Senator Nelson. Well, I hope so. I hope that that's the 
message that is being sent. I don't see any downside to having 
those kinds of messages sent to the Government of Syria. If 
nothing happens, nothing happens. But, if it is successful, it 
clearly seems like it's in the interest of lessening the people 
who come in to kill our young men and women.
    Ambassador Negroponte. I think in addition, if they reflect 
on the longer term, it really is in their interest that there 
be a stable and prosperous Iraq not only for them, but for all 
the countries of the region.
    Sir, could I correct, or add to a statement--and I'm 
actually corrected. Ambassador Ricciardone reminds me that the 
construction of an embassy could be completed in 24 months from 
the receipt of the funds.
    Senator Nelson. And of course, this committee no doubt 
will, under the able leadership of our chairman, will be quite 
responsive in coming forth with recommendations on those funds. 
But we have to know what the plans are before we can 
appropriate the funds.
    Ambassador Negroponte. A site has been identified, and 
General Williams is working on that. And I'm sure we will be 
back up to you on that question at some point in the future.
    Senator Nelson. OK. And Mr. Chairman, I would just close 
out my comments by saying to the Ambassador, because he has not 
apparently had the advantage of hearing my ad infinitum 
comments here, about the offer that was suggested to me by the 
Syrian President, that he wanted to cooperate with the 
Americans in trying to close the border.
    I have reported that to everybody in this administration 
until I'm blue in the face. And in some quarters it has been 
readily received, as in your department, as well as among 
people like General Myers, for obvious reasons.
    But in some other quarters it has been derided, as if that 
was not serious coming from Assad. So I give you, even though 
you're not going to be talking directly with him, I give you 
that for whatever it is worth as you calculate what you are 
going to do.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Nelson.
    Before I ask the final two questions, I will just announce 
that the record of the hearing will be kept open until 3 p.m. 
this afternoon, for additional comments, statements or 
questions from Senators. And in the event that there are 
additional questions, Ambassador, would you please respond as 
quickly and appropriately as possible? That will help us in 
completing the record in a timely manner.
    I wanted to ask a question that has been raised by some of 
our colleagues who are not on this committee. As the Coalition 
has been formed, the United States and other nations have 
stepped forward to provide security in Iraq. Has any preference 
been given to member countries of the Coalition, with regard to 
contracts, with regard to business?
    The question in this case is not being asked in an 
investigatory way. In other words we are not implying that some 
type of nefarious relationship is going on here. It has been 
asked as a practical matter of diplomacy. Are countries who are 
prepared to come forward with troops, promised an implied 
contract for their participation? Is it thought that they ought 
to get some business or some consideration when contracts occur 
in Iraq? Do you have any view of what has been occurring, or a 
view of what should occur?
    Ambassador Negroponte. Prospectively, I don't think I have 
a view. I don't think I know the answer to the question. I 
think looking back, my understanding and recollection was that 
Coalition members at the outset did have a priority with 
respect to prime contracting.
    But then again, in many instances, I think there are only a 
few countries that could actually carry out prime contracts. 
Then as far as the subcontracting was concerned, that was 
pretty much open. And I believe this remains the case today.
    The Chairman. Open then to any country.
    Ambassador Negroponte. Just about anybody, with a very few 
limitations which I'm sure must be of a legal or other nature.
    The Chairman. Clearly, many Senators, many Americans who 
are looking at that question, would say that we really don't 
want to mix politics and business, or military commitment with 
commercial interest. I am simply raising the question out of 
curiosity.
    In a practical way, often there is some mixture of the 
interests of countries in statecraft. The elements are not all 
military. In particular, when we're asking countries to commit 
forces and others are standing aside, out of a sense of 
fairness or equity, some say, well, after all, we're your 
friends, and we've stepped forward to help in this respect.
    You are suggesting that maybe at the outset, there might 
have been a preference. Perhaps for the moment, the security 
situation is such that most contracts are not progressing very 
rapidly. There are many people who are offering to help and who 
are holding back until they are certain that their workers are 
secure.
    As the reconstruction proceeds, some of these issues are 
likely to come to you, including questions of a business aspect 
as to how to sort out the equities, both American equities as 
well as others. I think you understand that. As I said, I am 
just curious as to whether you have any initial views, or if 
this is still an area of policy that, along with many of the 
issues, will have to be worked out with several parties?
    Ambassador Negroponte. I honestly don't have any initial 
views. But really it's more from lack of familiarity with the 
subject matter, Senator.
    The Chairman. You responded in terms of your own physical 
presence in various places. For a while you will be back and 
forth, understandably to New York and to Washington, leading 
into this new assignment, participating in the debates and the 
work that you're doing currently in your role at the United 
Nations.
    You indicated that you probably will be in this country, by 
and large, until the end of June, or close to that time. I'm 
curious, why would you not be in Iraq, say during the month of 
June, visiting with the Iraqi Government people, or helping to 
determine who will be in the government, and the security 
issues with the Armed Forces? Is this the kind of work that you 
can do in Washington and New York, with representatives of the 
countries or our country? Please give me some road map of your 
own itinerary, at this point.
    Ambassador Negroponte. Well, I think to answer your 
question of why, and again, this is obviously subject to the 
desires of the Secretary of State and the President. But why I 
wouldn't visualize being in Iraq during the month of June is 
that Ambassador Bremer is leading the Coalition Provisional 
Authority, and that is the vehicle for American representation 
in Iraq at this time. And the Embassy will not be created until 
the first of July. Or, the afternoon of 30 of June.
    But I did say, and I did mention that I will have a team 
there including a Deputy Chief of Mission, Mr. Jim Jeffrey, who 
is currently our Ambassador in Albania, has been designated. 
And he has strong management skills, and strong political 
skills, and a terrific reputation in the Department of State as 
a leader. And he will be out there with his embryonic team by 
the 15th of May. So I think we will be getting going.
    As far as my own plans, I really expect to be between here 
and New York during this intervening period, learning as much 
as I can, and also helping out on this question of the Security 
Council resolution.
    The Chairman. That may very well be the best course. As you 
pointed out, you do not want to step on the act that precedes 
you.
    Ambassador Negroponte. Right.
    The Chairman. On the other hand, a lot of what you've 
emphasized today, and what we've emphasized, indicates the need 
for a lot of hands-on rehearsing out there prior to Mr. Bremer 
leaving, or the transfer of some of his people over to your 
Embassy. As I understand some will be transferred and many will 
be new. Maybe this is something that our own government has to 
think through, that is the President, and the Secretary of 
State, and Defense and so forth, as to where you ought to be.
    Physically, how will the success of this post beginning on 
July 1 best be ensured, even while we work out our own 
diplomatic sensitivities as to who ought to be where and so 
forth?
    Normally, the role you have suggested would be fully 
appropriate. There would be resentment if somehow a new 
Ambassador arrived before the prior Ambassador left. It's 
almost like when the pastor of a church gives the final sermon. 
Sometimes it is best to have his or her departure first before 
somebody else takes over. Yet I think that this is, in a way, a 
markedly different situation, because of the extraordinary 
number of intersecting circumstances and personalities.
    I will leave it at that, but I felt it was important to try 
to raise the issue of who is going to be there. You cited Mr. 
Jeffries and others. Of course, that was one of the important 
points of the testimony provided by Secretary Grossman in our 
hearing last week. It was tremendously helpful to the committee 
and to the Senate, that he brought a very considerable text 
indicating the outline of positions.
    Ambassador Negroponte. But let me just stress: just about 
the entire team will be there.
    The Chairman. Yes.
    Ambassador Negroponte. During the month of June.
    The Chairman. Therefore, those folks, with only a long 
distance call or two from you, may be able to give continuity 
to this.
    We very much appreciate your testimony today. All the 
members have complimented you, and I continue that trend, in 
terms of the forthcoming answers and the detail to which you 
have replied. Likewise, where there are areas in which, because 
of the speed of this hearing, you have simply not had a chance 
to prepare, you have forthrightly indicated that.
    I have suggested that with the cooperation of both sides of 
the aisle here, we will hold additional hearings of oversight 
in which those matters which are still to be resolved--or maybe 
as yet unforeseen circumstances, of which there may be many--
may be reviewed by the committee in our oversight capacity. 
Perhaps such hearings might be helpful to you and to those who 
are working with you.
    We wish you every success. As I pointed out, we will 
attempt to move the nomination into consideration by all of our 
colleagues on the floor of the Senate, as soon as possible.
    Ambassador Negroponte. Thank you, Mr. Chairman.
    The Chairman. The hearing is adjourned.
    [Whereupon, at 12:58 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]

                              ----------                              


       Responses to Additional Questions Submitted for the Record


Responses of Ambassador John D. Negroponte to Additional Questions for 
            the Record Submitted by Senator Richard G. Lugar

    Question 1. Throughout his tenure, Ambassador Bremer has been ably 
assisted by veteran U.S. diplomats with Middle East expertise. You will 
need them as well as skilled managers to handle this challenging 
assignment. Who has been tapped to join you at the Embassy?

    Answer. We are very proud of the many State Department officers, 
including sitting Ambassadors in the Middle East, who have served in 
CPA. We have a number of senior volunteers for positions in the new 
Embassy, including many who have already spent time in Iraq over the 
past year.
    Importantly, we have already selected Ambassador James Jeffrey to 
be the Deputy Chief of Mission at Embassy Baghdad. Amb. Jeffrey has 
served as the U.S. Ambassador to Albania since October 15, 2002. Amb. 
Jeffrey is a Minister-Counselor in the Senior Foreign Service; he 
joined the Foreign Service in 1977. Among many notable assignments, he 
has served as Deputy Chief of Mission in Ankara and Kuwait. Amb. 
Jeffrey's distinguished career in the State Department has proven his 
exemplary management and political skills. He will be going out to 
Baghdad on May 15th to begin the process of standing up the Embassy.
    A number of other Senior Foreign Service officers have volunteered 
for the Department of State's counselor positions at Embassy Baghdad. 
We are in the process of finalizing these assignments and will be able 
to provide you with names in the near future.
    In addition to the Department of State, several agencies will also 
be sending senior representatives to work at the Embassy. Several 
agency heads and chiefs have already been selected, while others are 
still in the process of being chosen.

    Question 2. CPA has offices in Basrah, Hillah and Irbil. Do you 
intend to set up consulates outside of Baghdad?

    Answer. On July 1, USG civilians will continue to serve in 
locations as needed throughout the country. We are planning for teams 
outside of Baghdad, including in Basrah, Hillah, Mosul, and Kirkuk. We 
are addressing logistical and security requirements. Over time, we may 
establish one or more consulates, but have made no decision yet.

    Question 3. Do you think there are sufficient funds to support the 
reconstruction of Iraq? Have you discerned what your priorities might 
be for the $4 billion in Supplemental Funds that have been held back 
for 2005?

    Answer. We do not now anticipate further requests for Iraq 
reconstruction funds during the calendar year 2004. Of approximately 
5000 reconstruction projects identified by the Coalition Provisional 
Authority (CPA) in consultation with the Iraqi Ministries, about 2200 
are expected to be funded from the FY 04 Iraq Supplemental. The Program 
Management Office in Baghdad expects to be able to commit (i.e., 
identify for project needs), approximately $10 billion of the 
Supplemental by June 30, half for physical infrastructure 
reconstruction projects and half for urgent non-construction and 
procurement needs. Of that sum, approximately $6 billion have been 
already let in contracts. In addition, international commitments of $1 
billion for 2004 will be used toward a portion of the 700 projects 
prioritized by the Iraqi Strategic Review Board and an Iraqi 
Ministerial-level delegation that attended the Abu Dhabi donors' 
coordination meeting in February.
    The CPA developed its original spending plan for the entire $18.4 
billion Supplemental, which was updated and reported to Congress in 
January and again in April, 2004. However, we expect that new 
priorities may emerge, possibly including, for example, post-June 30 
Iraqi requests for more help in the areas of security force training 
and governmental capacity building. Of course, programs reflecting any 
changed priorities need to be developed in the context of the transfer 
to Iraqi sovereignty. Such changes would be developed by the State 
Department in consultation with the new sovereign Iraqi interim 
administration, with the U.S. agencies present in Iraq--among them the 
Defense Department (including the U.S. Army Corps of Engineers), USAID, 
Department of Commerce, Department of the Treasury, USTR, and others--
and with the international donor community of the 53 nations committed 
to assisting with reconstruction in Iraq.

    Question 4. On the draft Mission Diagram, you have a department 
called IRMO (Iraq Reconstruction Management Office) as well as an APCO 
(Army Program and Contract Office). Describe their authorities, 
composition, function and funding source. Will USAID coordinate these 
functions for you?

    Answer. The precise function and authorities of the Iraq 
Reconstruction Management Office (IRMO) and the Project and Contract 
Office (PCO) are under review. If the President decides to create IRMO, 
I anticipate it would be a temporary organization to administratively 
support advisors to Iraq's ministries and to prepare Iraq Relief and 
Reconstruction Fund (IRRF) project spending recommendations for the 
Ambassador. The Project and Contract Office, which is also subject to 
decision by the President, would be in the Department of Defense. It 
would be a way the U.S. Embassy agencies would implement Iraq 
reconstruction and recovery projects. Our plan calls for funding these 
organizations in whole or in part out of the IRRF.
    USAID is a very important part of our reconstruction effort, and 
will continue to coordinate with all members of the Mission who are 
implementing projects throughout Iraq.

                                 ______
                                 

Responses of Ambassador John D. Negroponte to Additional Questions for 
          the Record Submitted by Senator Joseph R. Biden, Jr.

    Question 1. The State Department Inspector General inspection of 
the U.S. Mission to the United Nations, conducted in early 2003, 
reported that ``[a] major concern among some employees relates to a 
perceived lack of coordination at the top and a lack of feedback from 
the executive office. Although these disconnects appear to be due 
largely to the press of urgent business, the absence of smooth 
communication among the sections is noticeable to the outside 
observer.''
  <bullet> How do you respond to this portion of the report?
  <bullet> Embassy Baghdad will be significantly larger than the U.S. 
        Mission to the UN. How will you propose to ensure strong 
        coordination and communication among all the Mission elements?

    Answer. I would note that the observation in the inspection of the 
U.S. Mission to the United Nations was not considered sufficiently 
serious to warrant a specific recommendation and was made in the 
context of a highly favorable inspection. In addition, the inspection 
took place during the January-February time frame when we had three 
visits from Secretary Powell at the height of the Iraq debate. 
Notwithstanding these pressures, I and my staff made every effort to 
accommodate the inspectors.
    Having said that, I would observe that upon assuming my 
responsibilities at USUN, I instituted several management mechanisms, 
including a daily staff meeting of all mission sections with 
representatives at both the ambassadorial and section head level to 
ensure regular dialogue and the sharing of information both with the 
executive staff and among sections themselves. This daily meeting is in 
addition to a weekly all-hands meeting of the entire mission staff. 
Following the inspection and at the informal recommendation of the 
inspectors, we also established a quarterly mission newsletter to 
further enhance communication within the mission.
    I believe that our record of accomplishment demonstrates effective 
management and prioritization of the many critical issues that we deal 
with each day. And while we try to assure up to the minute 
coordination, there will inevitably always be some individuals who feel 
out of the loop. I do also believe that those few people who may have 
been dissatisfied with the extent of communication and coordination in 
2003 would probably acknowledge today that substantial improvements 
have been made, in part because we have worked to bring progressively 
more senior staff into our decision making process.
    In Baghdad, strong coordination and communication will be essential 
and I plan to ensure that they exist by establishing clear lines of 
communication, by empowering a strong deputy (Indeed, I have chosen one 
who has a reputation for excellent management skills), by naming a 
Chief-of-Staff, and through the support of an Executive Secretariat 
along the lines of the Secretariat in the State Department, which 
although not a typical feature in most embassies, will play a vital 
role in ensuring the coordination and flow of information both 
internally to the Embassy and externally.
    As at USUN, I intend to have a regular series of country team 
meetings to ensure coordination among sections and with Mission 
management. I found in Mexico City, where I oversaw 33 different 
government agencies, that daily Country Team meetings were a very 
useful tool. I will probably have to wait until I arrive in Baghdad to 
decide what precise mechanisms I may use and at what frequency, 
depending on circumstances, needs and security considerations. But I 
can assure the Committee that I will work extremely hard to achieve the 
best possible communication and coordination among mission elements; 
and I expect to establish close personal relationships throughout the 
mission. This will be especially important given the critical 
circumstances.

    Question 2. Although the Transitional Administrative Law is an 
admirable document in many respects, it does not resolve some of the 
most pressing issues for Iraq--for example, the status of Islam and the 
degree of Kurdish autonomy. Furthermore, several of the Grand Ayatollah 
Sistani's supporters on the Governing Council expressed dissatisfaction 
with some of the clauses, notably the ``Kurdish veto'' provision.
  <bullet> What, in your view, are the stumbling blocks? What is the 
        administration's plan for resolving these disagreements? How 
        important is it to resolve these ideas by June 3Oth?
  <bullet> Does the CPA have a conduit to accurately relay our views to 
        Grand Ayatollah Sistani? Since Grand Ayatollah Sistani does not 
        talk to Ambassador Bremer, what expectation do you have that he 
        will talk to you? If he won't, how will we interact with him?

    Answer. The Transitional Administrative Law (TAL), in Article 7(A) 
recognizes Islam as the official religion of the State and as a source 
of legislation. It declares, ``No law that contradicts the universally 
agreed tenets of Islam, the principles of democracy, or the rights 
cited in Chapter Two of this Law may be enacted during the transitional 
period.'' The TAL also enshrines many important principles--such as the 
rule of law, equality before the law, freedom of expression, freedom of 
religion, and women's rights--that have been embraced by the majority 
of the Iraqi people.
    The TAL establishes a basis for the administration of Iraq until a 
permanent constitution is drafted by an elected body and ratified 
through a national referendum and a government is elected under that 
constitution's provisions. The Iraqi people must write and agree on a 
national constitution. We cannot do it for them. We believe, however, 
that the process of drafting the TAL has demonstrated that there is a 
national consensus on a number of these key issues and an ability to 
compromise. The U.S. will support the Iraqi people throughout this 
process. Our commitment to a secure, prosperous, free Iraq does not end 
on June 30.
    CPA has means to accurately convey information to Grand Ayatollah 
Sistani's closest advisors. Subject to the Senate's confirmation, I 
welcome the opportunity to meet with the breadth of Iraqi society, 
including Grand Ayatollah Sistani, upon my arrival in Iraq.

    Question 3. Secretary Wolfowitz implied last week before the Senate 
Armed Services Committee that there were conditions under which the 
transfer of sovereignty might be postponed. He said that ``there are 
certainly ways to proceed if it can't be done by July 1st,'' thought he 
did not further elaborate.
  <bullet> Under what circumstances would a transfer of sovereignty not 
        proceed on June 30th? What are the ``ways to proceed'' in this 
        case?

    Answer. We remain committed to the June 30th deadline. Iraqi 
political leaders, our Coalition partners and the UN have all expressed 
support for the June 30 date. The transfer of governing authority, the 
end of occupation and the establishment of an interim Iraqi Government 
to lead the nation forward to national elections are shared goals and 
we fully expect to make the deadline.

    Question 4. On April 7th you testified before the Senate Foreign 
Relations Committee on the oil-for-food program. During that hearing, 
we heard that Iraq had for at least three decades become a country 
built on corruption and graft. An official with Transparency 
International was quoted on an April 20th Minnesota Public Radio 
Marketplace broadcast as saying that ``bad contracts, price gouging and 
kickbacks'' could amount to as much as 20 percent of reconstruct funds 
spent.
    The U.S. and international community are trying to pour enormous 
resources into Iraq. These resources have enormous potential to do 
good, but they also create an enormous potential for graft and 
corruption as well.
    In your testimony, you said ``Working with the Iraqi authorities, 
who best understand the needs of their people, the Mission will oversee 
the vast array of reconstruction projects underway in Iraq. We will 
ensure that these projects, financed by taxpayer' funds, serve our 
policy goals and the priority needs validated by the Iraqis themselves, 
and we will hold these projects to the highest standards of financial 
accountability.''
  <bullet> Could you please elaborate on what concrete measures the 
        administration is taking to address the question of financial 
        accountability and transparency?
  <bullet> Has an external auditor been selected for the Development 
        Fund for Iraq?
  <bullet> How will the expenditure of the funds in the DFI account be 
        managed after the CPA dissolves on June 30, 2004?
  <bullet> What is the CPA's current assessment of the Iraqi 
        ministries' capacity to assume political and economic 
        responsibilities for governing Iraq by July 1, 2004?
  <bullet> How is the CPA helping build Iraq's national ministries in 
        such area as ensuring accountability, transparency, and due 
        process?

    Answer. Regarding your first question, CPA, in cooperation with the 
administration, has implemented a series of measures to address 
financial accountability and transparency. On January 28, the Iraqi 
Governing Council and Ambassador Bremer established the Commission on 
Public Integrity, an independent body dedicated to enforcing anti-
corruption laws. On February 5, Ambassador Bremer issued an order 
creating an independent Inspector General in each Iraqi ministry to 
pursue investigations of waste, fraud, abuse and illegal acts. These 
inspectors general will cooperate with the Commission on Public 
Integrity. In addition, the Administration supported the creation of 
the International Advisory and Monitoring Board, an independent body 
endorsed by UN Security Council Resolution 1483 to oversee audits of 
Iraqi export oil sales and expenditures from the Development Fund for 
Iraq. This Board and CPA collaborated on the recent hiring of an 
independent public accounting firm to audit the oil sales and the DFI.
    As we work on next steps in the Security Council, we will have a 
discussion with the international community on whether to preserve the 
IAMB during the transition period to provide oversight on the 
transparent and appropriate handling of Iraq's oil revenues.
    On the second question, KPMG Audit & Risk Advisory Services won the 
contract to audit the Development Fund for Iraq and Iraq's export oil 
sales. CPA nominated this firm, and the International Advisory and 
Monitoring Board approved the selection. The contract for audit 
services was signed only in early April, so the first audit has not 
been completed. We would hope to have it available by late summer. It 
is part of the Board's Terms of Reference that all audits will be made 
public.
    Regarding your third question, the Administration is looking at the 
possibility of a new UN resolution to address many of the issues 
involved in the transition to a sovereign Iraqi government on July 1. 
We anticipate that this resolution will recognize the dissolution of 
the CPA and the transfer of authority for disbursements from the DFI to 
Iraqi authorities. We also are considering the possibility of 
preserving the International Advisory and Monitoring Board after June 
30 to continue to supervise audits of oil exports and the DFI. We have 
consulted with Iraqi authorities on this issue, and we will continue 
these consultations with the international community.
    At the same time, CPA continues to work on putting in place a 
modern structure for public finance in Iraq. CPA is collaborating with 
the Iraqi economic team, the IMF, the World Bank, Washington agencies 
and other Coalition partners to develop a world-class financial 
management law by June 30.
    With respect to your fourth and fifth questions, I unfortunately do 
not have that information. I would need to refer you to my CPA 
colleagues, or respond at a later time.

    Question 5. The Iraqi Governing Council included a Ministry of 
Human Rights, but it has not been active. Some international human 
rights activists have called for this Ministry to be supplemented by a 
statutorily independent human rights monitoring system, or human rights 
ombudsman's office.
  <bullet> Would you support the creation of such an institution, which 
        would have a mandate to cover the full ranges of human rights 
        issues and the power to conduct investigations?

    Answer. This institution already exists. The Iraqis now have both a 
Ministry of Human Rights (MOHR), vested with creating laws and programs 
to ensure human rights protection in the future, and an independent 
National Human Rights Commission, to monitor human rights protection 
through the establishment of an Ombudsman and adherence to the ``Paris 
Principles.'' Therefore, at the transfer of governmental authority, 
Iraq will have solid human rights institutions and a comprehensive 
human rights agenda.
    The Transitional Administrative Law (TAL) protects the basic human 
rights outlined in many human rights documents. Under the TAL, all 
Iraqis ``are equal in their rights without regard to gender, sect, 
opinion, belief, nationality, religion, or origin.'' It also advocates 
for a goal of having 25% women's representation in the transitional 
legislative body. These provisions will help to ensure that the 
transitional, and future government institutions, comport with 
international standards for human rights. Shortly after liberation, the 
CPA, working with the Iraqi Governing Council, established the Ministry 
of Human Rights (MOHR), which is charged with addressing the past human 
rights atrocities in Iraq, and establishing conditions conducive to the 
protection of human rights and the prevention of human rights 
violations in the future in Iraq. Although the Ministry required 
several months to get up and running, it has already made tremendous 
progress towards accomplishing these goals. The Ministry established a 
Bureau of Missing Persons, a documentation project, a mass graves 
office, and has begun human rights education and NGO development 
programs in Iraq.
    Recognizing that the MOHR is charged with the operational 
implementation of programs and policies to ensure that the protections 
of human rights are guaranteed to all Iraqi citizens, but not vested 
with the authority to actually take claims, the Iraqi Governing Council 
established a National Human Rights Commission (HRC) in the recent TAL 
so that Iraqi citizens would have an independent, impartial entity to 
take claims of human rights abuse against the government to. This 
National HRC is currently being developed using, in part, funding for 
human rights issues that Congress passed in the Iraq Supplemental. This 
National HRC will have an ombudsman type of role, and will comport with 
the ``Paris Principles'' for Human Rights Commissions necessary for 
international legitimacy.
    In addition to these purely human rights institutions, are the 
Iraqi Special Tribunal (IST), the Iraq Property Claims Commission 
(IPCC), and a newly created National Commission for Remembrance, all 
dedicated to addressing the atrocities committed by the former regime 
and showing commitment of the Iraq people that fundamental human rights 
now exist in Iraq.

    Question 6. After the fall of Saddam Hussein in April 2003, Iraqis 
began to identify mass gravesites around the country. Despite their 
awareness of the discovery of these gravesites, occupying U.S. forces 
did not move to protect the sites, provide professional direction and 
support for excavations, or deploy forensic teams. Consequently, flawed 
excavations by Iraqi civilians have rendered many bodies 
unidentifiable.
  <bullet> If confirmed what will you do to help the Iraqi government 
        improve protection of undisturbed mass gravesites, establish 
        proper exhumation procedures and help preserve evidence for 
        future criminal proceedings?

    Answer.
  <bullet> After the fall of Saddam Hussein in April 2003, families of 
        missing Iraqi victims fled to mass grave sites around the 
        country. To date, there have been 274 such sites reported. U.S. 
        forces and CPA leadership were well aware of this ``rush to the 
        graves'' and immediately interacted with local and national 
        Iraqi leaders and members of civil society to determine the 
        best approach. We launched a public information campaign, and 
        aggressively pursued outreach by engaging leaders around the 
        county. The CPA also sent officials to the grave sites that 
        were being discovered to urge locals to be patient and wait for 
        international assistance. This outreach campaign was extremely 
        successful, and of the 274 sites reported around the country, 
        only 14 were disturbed.
  <bullet> The CPA's Office of Human Rights and Transitional Justice 
        also established a CPA Core Forensic Team last May, which has 
        been consistently staffed by members of the UK, Irish and US 
        governments. This team worked closely with the Army's Criminal 
        Investigative Division (CID) and the Marine Corp's Task Force 
        Justice (TFJ) to identify those sites which will be useful for 
        evidentiary purposes. The U.S. Armed Forces Institute of 
        Pathology also sent a team to Iraq, which investigated one of 
        several sites intended for use as evidence. The CPA also 
        coordinated, and provided support for mass grave teams from 
        Denmark, Finland and the UK, as well as experts from Sweden, 
        the ICRC, ICMP and Physicians for Human Rights.
  <bullet> Training of Iraqi experts in community-led procedures is 
        already underway and we will continue those programs to ensure 
        that these gravesites continue to be protected.
  <bullet> Although Iraqis have no indigenous capacity for forensic 
        investigations, we are working with them to ensure that they 
        have all the necessary international resources, assistance and 
        training to develop and preserve evidence, engage in thorough 
        investigations, and conduct fair, open and effective 
        prosecutions.

    Question 7. Although much evidence has been destroyed, there is 
likely to be sufficient evidence to bring criminal prosecution for the 
crimes against humanity committed by the regime of Saddam Hussein. 
While a tribunal has been established to try Saddam Hussein and senior 
Baathist leaders, many abuses also were committed by lower level 
officials.
  <bullet> What type of process would you recommend to bring these 
        perpetrators to justice?

    Answer.
  <bullet> The Iraqi Special Tribunal was created by the Iraq Governing 
        Council in order to try Saddam Hussein and other former regime 
        officials for war crimes, crimes against humanity, genocide and 
        other serious offenses.
  <bullet> Nothing, however, precludes members of the Iraqi Ministry of 
        Justice from trying lower level officials in local courts for 
        regular offenses, such as murder, under the Iraqi Penal Code.
  <bullet> In addition, the CPA and Iraqi officials have discussed the 
        concept of a possible truth-revealing process, such as a Truth 
        Commission. If this is something that the Iraq people desire to 
        assist in their reconciliation process, then the Embassy will 
        support this. Congress allocated funding to support a Truth 
        Commission in the Iraq Supplemental.
  <bullet> This will be an Iraqi-led process, with the support and 
        assistance of the United States and other members of the 
        international community.
  <bullet> We cannot speculate on when trials might start, or who will 
        be brought before the Tribunal, but it is important to note 
        that the Tribunal be structured and procedures put in place so 
        that any legal process is fair, objective, and in accordance 
        with international standards.

                                 sudan
    Question 1. U.S. and senior UN officials have used the phrase 
ethnic cleansing to describe the actions of the Government of Sudan and 
government-sponsored militia in Darfur. Does the Security Council agree 
that ethnic cleansing is an accurate characterization? Do you believe 
what has occurred in Darfur is ethnic cleansing? Do you see a 
distinction between what has been going on in Darfur and events in 
Rwanda in 1994? What is that difference between ethnic cleansing and 
genocide?

    Answer. We believe what has occurred in Darfur is ethnic cleansing. 
Government-supported Arab ``jingaweit'' militias, working in 
coordination with government forces, have systematically forced 
Africans Muslims from the land by burning hundreds of villages and 
terrorizing the population. These tactics, amounting to a scorched 
earth policy, are clearly intended to force the African population 
permanently from the land. Arab Muslim villages that are sometimes in 
close proximity to the African Muslim villages have not been touched. 
UN Secretary General Kofi Annan has publicly condemned this ethnic 
cleansing. At a special briefing on Darfur on April 2, 2004 UN Under 
Secretary-General Egeland told the UN Security Council that what is 
taking place in Darfur is ethnic cleansing.
    The events in Rwanda in 1994 have been found to constitute genocide 
under international law. As reflected in the recent Sudan Peace Act 
report to the Congress, we have reported extensively on the events in 
Darfur. We are closely monitoring the situation.

    Question 2. What specific measures have you taken to obtain a 
Presidential Statement in the Security Council condemning the actions 
of the Government of Sudan in Darfur?

    Answer. The United States has led the effort to bring Sudan to the 
Security Council's attention, including helping arrange the April 2, 
2004, briefing of the Council by UN Under Secretary-General for 
Humanitarian Affairs Jan Egeland. The Security Council issued a press 
statement following the briefing. We had initially drafted a 
Presidential Statement, not a press statement, but due to opposition 
from other Council members the Council only agreed to issue a press 
statement that was weaker than we sought. Because the Council's 
statement was not as strong as we would have liked, Amb. Holliday met 
with the press immediately following the briefing to publicly emphasize 
the United States position that the Government of Sudan be held 
accountable for its actions in Darfur. The Department also issued a 
strong statement to the press that day during its daily press briefing.
    World Food Program Director Jim Morris is currently in Darfur and 
we are working to have him brief the Security Council upon his return 
in early May. This will give us another opportunity to encourage the 
Security Council to take up this issue.

    Question 3. What is the likelihood of the Security Council passing 
a resolution condemning the Government of Sudan's actions in Darfur? 
Has the U.S. been working to push such a resolution?

    Answer. The U.S. has been working to bring Darfur before the 
Security Council for some time now. On April 2, 2004 the Council issued 
a press statement following a briefing by UN Under Secretary-General 
for Humanitarian Affairs Jan Egeland. We worked hard to arrange this 
briefing, which was opposed by several members of the Council. We 
sought to have the Council issue a Presidential Statement, but due to 
opposition from some Council members had to settle for a weaker press 
statement. We have been disappointed with the reaction of the Security 
Council to date regarding Darfur. We do not see sufficient support in 
the Council for agreement to adopt a resolution condemning the 
Government of Sudan at this time. We will continue working to keep this 
issue before the Council, pushing for the strongest possible action, if 
the Government of Sudan does not act to stop the violence in Darfur, to 
allow unrestricted humanitarian access, and to allow international 
monitoring of the situation there. World Food Program Director Jim 
Morris is currently in Darfur and we are working to have him brief the 
Security Council after his return next week. This will provide us with 
another opportunity to push the Security Council to take up this issue.

    Question 4. On April 7, UN Secretary General Kofi Annan indicated 
that the international community may have to intervene with military 
force in Darfur if the security situation did not improve. Is such a 
force necessary in your estimation? What are your thoughts regarding 
the protection of civilians in Darfur?

    Answer. We believe that all diplomatic measures should be taken to 
end conflicts before considering intervention in internal disputes by 
force. With U.S. support and participation, the UN Secretary General 
and the International community have pursued a ceasefire between the 
parties in Darfur. The Mediator, Chadian President Deby, assisted by 
the U.S., the EU, the AU and the UN, met with the parties from 30 March 
to 7 April in N'djamena, Chad. They were successful in obtaining an 
agreement between the parties to a humanitarian ceasefire in Darfur, to 
go into effect on April 10.
    The agreement called for the establishment of a Cease Fire 
Commission (CFC) to be established by the parties, the AU and the 
international community. The CFC will monitor the ceasefire, hear 
reports of violations, investigate and work with the parties to ensure 
that the terms of the ceasefire are honored. Since the agreement to the 
ceasefire, there has been some diminution of violence, but 
``Jingaweit'' militia are continuing violence against civilians. In an 
April 19-20 meeting in Addis Ababa, the U.S., the Mediator, the EU, UN, 
and the AU worked out details for international monitoring. We are 
pressing the Government of Sudan to agree to the immediate deployment 
of international monitors, including personnel from the U.S., EU, and 
AU. The U.S. is prepared to send monitors and provide logistical 
assistance to the CFC. A CFC with international membership, working 
closely with U.S. and international humanitarian aid agencies, will 
provide a credible mechanism--without military force intervention--to 
ensure that the ceasefire is being honored and, if not, to pinpoint 
which party is responsible and to apply necessary pressure to end the 
violence in Darfur.

    Question 5. I understand that the United States attempted to get an 
article 9 resolution on Darfur in Geneva last week, but was 
unsuccessful. What are the practical consequences of this failure? Will 
the United States push for a special session of the UN Human Rights 
Commission to discuss Sudan? What could we expect to come out of such a 
session?

    Answer. The United States pushed hard to obtain a resolution at the 
UN Human Rights Commission (CHR) calling for the appointment of a 
special rapporteur on Sudan under Agenda Item 9. The United States co-
sponsored an Item 9 resolution tabled by the European Union. In the 
end, however, the European Union decided to drop support for such a 
resolution and instead agreed to a weak Africa Group proposal to issue 
a unanimous statement by the Chairman of the CHR calling for the 
appointment of an independent expert. We made clear our view that a 
statement calling for the appointment of an independent expert was not 
acceptable, since independent experts are generally appointed to work 
with countries that are deemed to be in the process of improving their 
human rights records. This is not the case with respect to the 
Government of Sudan, given the violence and atrocities being 
perpetrated in Darttir. The weaker text also omitted forthright 
statements about the atrocities being committed in Darfur.
    We therefore voted against the proposed ``draft decision'', but the 
decision was adopted 50-1 (U.S.), with 2 abstentions (Australia and 
Ukraine). Before the final vote on the ``draft decision'' the U.S. 
offered two amendments taken out of the original tougher Item 9 
resolution tabled by the EU, with more frank language on Darfur; those 
amendments failed, but the EU felt compelled to vote for their own 
previous language. Then, as a co-sponsor of the Item 9 resolution, we 
insisted that it be brought to a vote, but that motion was ruled out of 
order. At the time of the vote, we made a very strong statement on 
Sudan. The U.S. considered it essential to stand up for the intended 
purpose of the CHR, especially when Secretary General Annan spoke at 
this CHR session to commemorate the tenth anniversary of genocide in 
Rwanda and suggested that ethnic cleansing appeared to be unfolding in 
Sudan. NGOs have strongly supported our stand.
    What happened in Geneva sends the wrong message to the Government 
of Sudan by leading it to believe that it can avoid the toughest 
pressures despite the violence and atrocities it is perpetrating in 
Darfur. Our head of delegation, Ambassador Richard Williamson, 
indicated in Geneva that we want a Special Sitting of the CHR convened 
to consider the results of the visit of a CHR team to Darfur that is 
underway now. While this idea received no support, we intend to push 
for this. We are determined to maintain strong international pressure 
until the Government of Sudan takes the steps necessary to address the 
situation in Darfur: end the violence being perpetrated by the 
``jingaweit'' militias; agree to international monitoring; and 
facilitate unrestricted humanitarian access.

                                 ______
                                 

Responses of Ambassador John D. Negroponte to Additional Questions for 
            the Record Submitted by Senator George F. Allen

    Question 1. Among the more significant Program Management 
challenges for the Coalition Provisional Authority and its successor 
for the re-building of Iraq are: (1) transferring knowledge, skills, 
and capabilities to Iraq's ministries and to its people; and (2) 
increasing involvement and opportunities for Iraqi women in the future 
of their country. Are you equally committed to supporting these 
initiatives, which have been incorporated in all private sector Program 
Management contracts for the rebuilding of Iraq?

    Answer. The State Department is firmly committed to the goals of 
capacity building and empowerment of Iraqi women. As the CPA successor 
on U.S. Government assistance coordination, the State Department will 
inherit responsibility for contractual obligations from the CPA and 
will continue to respect them in implementation of bilateral 
assistance.
    In addition, most State Department programs in Iraq since May 1, 
2003 have been in the area of capacity building, including democracy 
building initiatives, security force training, re-establishment of the 
Fulbright program and other educational and information exchanges, and 
training for the demining of Iraq, in addition to a wide variety of 
initiatives among Iraqi women, including political training, promotion 
of women's organizations, and civic education. Furthermore, the State 
Department is exploring ways to increase capacity building and 
empowerment of women after the July 1st transfer of sovereignty by 
launching initiatives to create a U.S.-Iraqi women's network and 
promote women's participation in political, economic, and civic life. 
In addition, we are investigating taking advantage of the fact that 
most Iraqi engineering graduates are women, which represents an 
untapped resource for the reconstruction of Iraq.

    Question 2. Among the more significant Program Management 
challenges for the Coalition Provisional Authority and its successor 
for the re-building of Iraq are: (1) transferring knowledge, skills, 
and capabilities to Iraq's Ministries and to its people; and (2) 
increasing involvement and opportunities for Iraqi women in the future 
of their country. How will you ensure that these initiatives are 
carried out in a timely and effective manner?

    Answer. The State Department can ensure that initiatives that are 
built into contracts will be carried out in a timely and effective 
manner by ensuring that the contracts themselves are carried out in a 
timely and effective manner that respects the terms of the contracts. 
The State Department expects that $5 billion of the $18.4 billion 
supplemental for Iraq will be obligated to programs by June 30th. After 
July 1st, the State Department will inherit CPA's responsibilities for 
ensuring that capacity building, institution building, and empowerment 
of women remain an essential component of the Iraq reconstruction 
effort. All implementing agencies for U.S. bilateral assistance will 
report to the Chief of Mission (COM) for policy direction and general 
oversight, and the each implementing agency will ensure that vendors 
respect the terms of their contracts and subcontracts. The State 
Department strongly supports the efforts of the Iraqi line ministries, 
along with the World Bank and UN, to create training opportunities for 
Iraqis both within Iraq and outside its borders, programs that are 
ongoing and that should expand in the coming months.

                                 ______
                                 

Responses of Ambassador John D. Negroponte to Additional Questions for 
             the Record Submitted by Senator Jon S. Corzine

    Question 1. Under Secretary of State Marc Grossman testified on 
April 22 that the interim government of Iraq ``should not have a law-
making body.'' Transitional Administrative Law (TAL), Article 3(A), 
stipulates that there will be a National Assembly during the 
``transitional period.'' Article 2(A) of the TAL defines the 
``transitional period'' as beginning June 30, 2004. Can you clarify 
when a law-making body will come into existence in Iraq?

    Answer. The TAL envisions a law-making, legislative body, the 
National Assembly, during the period of the Iraqi Transitional 
Government (ITG). The ITG will be formed through national elections to 
be held no later than January 31, 2005. Under Secretary Grossman was 
referring to the Interim Iraqi Government (IIG), which will hold office 
from June 30th until national elections are held. Though the IIG will 
not have a lawmaking body as such, it will have the ability to issue 
legally binding resolutions necessary to carry out the administration 
of the government and to prepare for elections.

    Question 2. Can you provide further details on which policy 
decisions will be codified and in what manner? Will the Iraqi Interim 
Government be able to pass budgets or substantive regulations on 
matters such as criminal law or procedure, economic regulation, and 
anti-corruption? Will the Interim Iraqi Government be able to amend or 
repeal CPA orders?

    Answer. On June 30, when a sovereign Interim Iraqi Government (IIG) 
assumes power in Iraq, the Transitional Administrative Law (TAL) will 
come into effect. Per Article 2 of the TAL, further delineation of the 
powers of the interim government that will govern Iraq until national 
elections are held will be spelled out in an Annex to be drafted prior 
to June 30.
    There should be no doubt, however, that the interim government will 
be the sovereign government of Iraq and will run the daily affairs of 
government, including the budget, through Iraq's 25 ministries. It 
would be reasonable to assume that because of its focus on preparing 
for national elections and limited life span, the IIG's authority to 
pass permanently binding legislation should be constrained. Iraqis have 
made clear to us that they do not want an unelected body making certain 
long-term permanent commitments on behalf of Iraq. Given these 
considerations, we expect the IIG to have the power to pass legally 
binding regulations necessary to run the affairs of government and to 
establish Iraq as a responsible member of the international community.

    Question 3. You testified to the Committee that there will be an 
``independent Iraqi Electoral Commission'' to ``oversee the electoral 
process''. Who will appoint the members of that Commission? Article 
30(C) of the TAL states that there will be an election law and a law 
governing political parties. Who will be responsible for drafting those 
laws and which authority will issue or pass them? How does this square 
with the Under Secretary Grossman's testimony that the IIG will not 
issue any new laws?

    Answer. UN election experts have impressed upon their Iraqi 
interlocutors the importance of putting in place as soon as possible an 
effective Electoral Commission to manage the complex preparations for 
national elections. The Governing Council, the CPA, the UN election 
team and international election experts are working now on the 
structure and composition of an Electoral Commission and the text of an 
electoral law. Given the importance of moving quickly to establish the 
institutions and a framework for elections, we expect consensus will be 
reached well in advance of June 30.
    After June 30, the IIG will guide the country to elections, and 
will have the authority to issue legally binding regulations to that 
effect.
    The UN is playing a central role in this process, and we expect 
that role to continue after June 30. Their election experts have vast 
expertise derived from their work in numerous post-conflict situations. 
Their contribution to the Iraqi electoral process reflects the vital UN 
role that the administration has affirmed repeatedly, and which the 
Iraqi Governing Council called for in its letter of March 17.

    Question 4. You testified to the Committee that ``major decisions'' 
related to oil contracts should await the establishment of an elected 
government in Iraq. Can you explain what contracts the Iraqi interim 
government will not be permitted to enter into, and what mechanism will 
exist to determine the extent of the government's decision-making 
authority in this area?

    Answer. The Interim Iraqi Government (IIG) will be limited in 
duration and have as its core focus the holding of national elections 
no later than January 31, 2005. It will have all necessary authorities 
to carry out the day-to-day operations of the government and to plan 
for elections.
    Iraqis have made clear to us that they are concerned that an 
unelected ``caretaker'' government might bind a future, elected 
government of Iraq. Iraqis, the Coalition and the United Nations are 
still discussing these issues. Any limitations on the IIG's authority 
will reflect the concerns of the Iraqi people and will be spelled out 
in the annex to the Transitional Administrative Law that will be 
drafted prior to June 30. We must emphasize that any limitation of the 
IIG's authority does not imply any retention of Coalition authority.
    Regarding oil, this might mean agreements to maintain, rehabilitate 
or improve existing fields or infrastructure would be approved while 
the Iraqi Interim Government is in office. Other, longer term contracts 
for exploration or development might be postponed until the elected 
Iraqi Transitional Government takes office.

    Question 5. You testified the Iraq Interim Government will be able 
to conduct its own foreign policy. Will that government be able to 
enter into treaties? Will it be able to sign international agreements, 
both bilateral and multilateral? Will it be able to enter into whatever 
kinds of relations it chooses with other countries?

    Answer. While technically still under Coalition authority, the 
Iraqi Ministry of Foreign Affairs is already conducting an independent 
Iraqi foreign policy. Our role has been to support rather than direct 
Iraqi efforts to normalize its relations with the international 
community. Foreign Minister Zebari has done an outstanding job 
confronting the challenges of establishing constructive bilateral 
relations and building a professional diplomatic corps, and he has 
traveled to numerous capitals to advance Iraqi interests. He has also 
participated in UN Security Council sessions related to Iraq.
    The precise powers of the IIG are delineated in the TAL, including 
the Annex to be drafted before June 30. We anticipate that the IIG will 
have the authorities necessary to establish Iraq, through bilateral and 
multilateral treaties and international agreements, as a full member of 
the international community.

    Question 6. What is the role of the Justice Department initiative 
related to the Iraqi Special Tribunal? Can you confirm whether the CPA 
or the Governing Council formally appointed Salem Chalabi to be the 
administrator of the Tribunal? Under Secretary Grossman testified on 
April 22 that the Iraqi interim government will be able to change the 
composition of the Tribunal. Can you confirm this? Is it your view that 
Coalition forces should hand over Saddam Hussein to the Tribunal before 
June 30th, after the establishment of an interim government, or after 
the formation of an elected government? Does this matter rest with the 
Ambassador or with the Department of Defense?

    Answer:
  <bullet> The Regime Crimes Advisor, appointed by the Attorney 
        General, plans to establish an office (RCAO) in Baghdad that 
        will continue the work of the Coalition Provisional Authority's 
        Office of Human Rights and Transitional Justice, which had 
        previously been supporting the Iraqi-led efforts to create the 
        IST. Specifically, the RCAO plans to assist the Iraqi tribunal 
        investigators, prosecutors and investigative judges with the 
        investigation and prosecution of members of the former Iraqi 
        regime, and ensure the Iraqis receive appropriate training and 
        technical assistance.
  <bullet> Salem Chalabi was appointed as the interim administrator of 
        the Court by the Iraqi Governing Council, until such time as a 
        permanent President is selected and appointed.
  <bullet> The Statute allows the interim government to appoint 
        international judges if it deems appropriate. It also 
        specifically calls for the use of international advisors. This 
        will be an Iraqi-led process.
  <bullet> The Iraqi Special Tribunal is in the very early stages of 
        being formed, and the actual commencement of trials is not 
        imminent. At the appropriate time, all relevant authorities 
        will determine how and when to turn Saddam Hussein over for 
        prosecution. Within the U.S. Government, that decision will be 
        made in close consultation among the Ambassador and all 
        concerned U.S. agencies.

                                 <all>

</pre></body></html>
